<html>
<title> - STATE OF THE UNITED STATES OLYMPIC COMMITTEE (USOC)</title>
<body><pre>[Senate Hearing 108-897]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-897

          STATE OF THE UNITED STATES OLYMPIC COMMITTEE (USOC)

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 28, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                     U.S. GOVERNMENT PRINTING OFFICE
95-052 PDF               WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 28, 2003.................................     1
Statement of Senator Breaux......................................     7
Statement of Senator McCain......................................     1
Statement of Senator Smith.......................................     7
Statement of Senator Stevens.....................................     2
Statement of Senator Wyden.......................................     3

                               Witnesses

Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     4
Duberstein, Kenneth M., Chairman, USOC Ethics Committee..........     8
    Prepared statement...........................................    10
Godino, Rachel, Chairperson, Athletes' Advisory Council, and USOC 
  Executive Committee Member.....................................    28
    Prepared statement...........................................    31
Mankamyer, Marty, President, United States Olympic Committee.....    43
    Prepared statement...........................................    45
Marshall, Jr., Thurgood, Vice Chairman, USOC Ethics Committee....    14
    Prepared statement...........................................    15
Rodgers, Patrick J., Former USOC Ethics Compliance Officer.......    34
    Prepared statement...........................................    36
Ward, Lloyd, Chief Executive Officer and Executive Director, 
  United States Olympic Committee................................    39

                                Contents

Response to written questions submitted by Hon. Barbara Boxer to 
  Lloyd Ward.....................................................    68
Snowe, Hon. Olympia J., U.S. Senator from Maine, prepared 
  statement......................................................    67

 
          STATE OF THE UNITED STATES OLYMPIC COMMITTEE (USOC)

                              ----------                              


                       TUESDAY, JANUARY 28, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good afternoon. I welcome the witnesses and 
thank those who made special arrangements to be here. The 
purpose of this hearing is to examine both the recent reports 
of turmoil within the USOC's leadership and what steps should 
be taken to address this situation. The ongoing feud between 
Mr. Ward and Mrs. Mankamyer has drawn sharp criticism from 
corporate sponsors, the media, and the international sports 
community.
    Among those who have been critical include David 
D'Alessandro, chairman and CEO of the USOC sponsor John Hancock 
Financial Services, who called the USOC ``a dysfunctional 
family that keeps electing the daft cousin or uncle to the top 
job. Their bureaucracy must be blown up and restructured.'' The 
head of one Olympic governing body referred to the USOC's 
leaders as not only ``dysfunctional'' but ``cannibalistic''. A 
writer for the Boston Globe wrote that, ``Everything that 
happens with the Olympic committee has to do with ethics. It is 
just one ethics problem after another.''
    Frank DeFord of Sports Illustrated called the USOC 
collectively a ``nincompoop'', and Dick Pound, a former IOC 
vice president, warns that the current situation is, ``bad for 
the United States.'' He goes on to say that, ``ultimately, if 
it persists, it will be bad for the Olympic movement.''
    The mission statement of USOC is to ``preserve and promote 
the Olympic ideal as an effective, positive model that inspires 
all Americans.'' Recent actions by those charged with leading 
the USOC, however, have contradicted that mission and tainted 
the organization's credibility in the eyes of the public. If we 
are to restore the public's faith in the United States 
Olympics' Committee we must resolve conflicts that exist within 
its leadership but also reconsider the overall structure of the 
organization.
    The Commerce Committee oversees Olympics issues and has a 
responsibility to ensure that the USOC operates effectively. In 
light of the ongoing problems that exist within the USOC, which 
may be compounded by the many changes this organization has 
experienced since it was chartered back in the 1978 Ted Stevens 
Amateur Sports Act, including the fact that since 1984 the USOC 
has become a very big money operation, $500 million every 4 
years, I would like to say today that this Committee will hold 
another hearing within the next month to look beyond the 
organization's current leadership roles. At that hearing, we 
will examine the structure of the organization with an eye 
toward reducing the tension that has existed historically 
between the USOC CEO and its president, and to work to adapt 
whatever reform measures may be needed.
    During this process, I hope to rely on the expertise of my 
key colleagues to my left, Senator Stevens and Senator 
Campbell. Senator Stevens is the author of the 1978 Amateur 
Sports Act, and we all know Senator Campbell is a former 
Olympian. I want to thank them both for their dedication to the 
preservation of amateur sports, and I appreciate their 
involvement in this issue. I look forward to working with them, 
with the rest of the Members of the Committee, as we try to 
resolve this very, very unpleasant situation.
    I would yield to Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing. I am concerned with recent 
events within and surrounding the USOC. It seems that the USOC 
has become dysfunctional as an institution, and has lost sight 
of its principal focus, the American athletes. Not once over 
the last 2 months have I read a single story about the USOC 
that mentions the athletes.
    As you have mentioned, after I was on President Ford's 
Commission on Olympic Sports I spent 16 months working on this 
Amateur Sports Act. We had two or three meetings a week here in 
this very room for hours at a time trying to reach a consensus 
on what should be in that act, and in the end we thought we had 
created a system that would work.
    Now, I am concerned that something in that system has 
failed. It is not clear to me whether changes in the act are 
needed, or if the governing structure of the USOC needs to be 
changed. What is clear is that what is currently happening is 
not acceptable to any of us. The USOC is an organization 
created by Congress, and Congress has the power to revoke that 
charter. Time and time again we have seen the failings of the 
governance within the USOC. In 1995, the karate issues kept me 
and my staff tied up for months. The athletes should not have 
to turn to Congress to get disputes resolved in a timely 
manner. The current equestrian problems have been going on for 
over 2 years, and to my knowledge there is no resolution in 
sight. Congress has been assuming good management, and with 
good management these kinds of problems do not arise.
    Chairman McCain, I do thank you for holding this hearing. I 
hope we will work together, and I am delighted that Senator 
Campbell is here to work with us. I will offer my staff to work 
with the Committee staff in reviewing the act to see if we can 
find solutions to these problems, but clearly it is going to 
take some hard work to do so.
    The Chairman. Thank you, Senator Stevens. Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. I will look forward 
very much to working with you and Senator Stevens and Senator 
Campbell on this. Senator Stevens in particular has just done 
such extraordinary work to support the Olympic Committee, and I 
want him to know how much I have appreciated his leadership and 
look forward to working with all three of you. This is going to 
be a truly bipartisan effort.
    Mr. Chairman and colleagues, plagued by conflicts of 
interest among executives and inflicted by the turmoil of 
turnover, scandals seem to follow the U.S. Olympics Committee 
like dogs follow a meat wagon. There is a pattern of conflicts 
of interest: the current U.S. Olympic Committee CEO signed a 
conflict of interest statement on July 1 of 2002 saying he had 
no real or perceived conflicts of interest at about the same 
time he was trying to steer a $4.6 million contract related to 
the Pan Am Games to his brother's company.
    The Justice Department and FBI are also investigating a 
bribery allegation involving Mr. Ward's brother's company and 
the Pan Am Games. In December, the Ethics Committee of the USOC 
found Mr. Ward's conduct created the appearance of a conflict 
of interest, but then dismissed his conduct as what they called 
a technical violation. In response, three members of the Ethics 
Committee and his chief staff person, Mr. Patrick Rodgers, 
resigned.
    The pattern of conflict of interest really goes on and on, 
and I also intend to investigate the press reports indicating 
at the time he was hired to run the U.S. Olympic Committee Mr. 
Ward failed to disclose his membership in the Augusta National 
Golf Club, whose membership policy runs contrary to the Ted 
Stevens Amateur Sports Act's goal, and I quote, ``to encourage 
and provide assistance to amateur athletic activities for 
women.''
    So this Committee has got a big job to drain the swamp over 
there at the Olympic Committee, and it is my view that the U.S. 
Olympic Committee needs top to bottom restructuring, and I 
would especially like to see more sunshine in its operations.
    Finally, Mr. Chairman, I would like to note that Mr. Fred 
Fielding, who did the internal investigation report of Mr. 
Lloyd Ward, was invited to today's hearing but could not 
attend. I am very disappointed because he, of course, did the 
actual ethics investigation, and I hope that this Committee is 
going to hear from Mr. Fielding in the future. I hope that he 
would be willing to appear voluntarily, but if he is not 
willing, Mr. Chairman, I think this is of such importance that 
the Committee ought to consider issuing a subpoena to have Mr. 
Fielding appear.
    I thank you.
    The Chairman. Well, thank you, Senator Wyden. I was very 
disappointed that Mr. Fielding seemed to have other important 
engagements than to be here, and if he refuses to appear before 
the Committee, then I obviously I would ask the Members of the 
Committee to approve a subpoena. It is very difficult to get 
all the facts in this hearing without the person who conducted 
the investigation, and I was astonished at his refusal to 
appear. You would think that he would be interested in helping 
this Committee clear up this issue. I thank you.
    Senator Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman. I appreciate you 
convening this very important hearing, and appreciate your 
allowing me to sit with the Committee as a guest. However, I 
would be happy to defer to my colleague, Senator Breaux.
    Senator Breaux. That is all right. Go ahead.
    Senator Campbell. Then I will continue. I might say, Mr. 
Chairman, I above many of my colleagues have a vested interest 
in this issue, not only as a Senator in whose State the United 
States Olympic Committee is headquartered, but as a taxpayer 
and as an Olympian myself. I take the whole sordid mess, very 
frankly, very personally and believe me, if medals were given 
for bickering and in-fighting, people involved in this would be 
gold medal recipients themselves.
    Tonight, most of the English-speaking world will be 
listening to the President of the United States as he outlines 
an agenda to deal with issues of great importance, of potential 
war in Iraq, a stagnated economy, homeland security, the budget 
deficit, health and education for our people, and many other 
things. There are going to be very difficult problems that we 
have to contemplate in this upcoming Congress. America should 
not be distracted by what appears to be a state of dysfunction 
in the U.S. Olympic Committee.
    My time as a member of the team, the Olympic Team, provided 
me with considerable opportunities in my lifetime that I might 
not otherwise have had, and they are certainly experiences that 
I will treasure for my entire life, but because of those 
memories years ago when I got involved in public policy I 
decided to do what I could for young athletes who have had the 
same experiences that I did.
    I first started helping the USOC as a member of the 
Colorado State legislature when I worked on legislation to 
provide a State income tax check-off to raise money for the 
USOC. I also worked on language to give tuition waivers to out-
of-State students attending colleges in Colorado while they 
were in training, and to waive in-State certification for 
doctors working at USOC headquarters.
    Since I have been a Member of Congress, I, along with 
Senator Stevens and several others, have been some of the 
strongest supporters of the Olympic movement. As members of the 
Appropriations Committee, we have been working for the last 6 
years, as an example, to provide the USOC with a new office 
building in Colorado Springs. We have worked to provide $14 
million for the USOC's drug testing administration. We provided 
that money directly through the United States Antidoping Agency 
so the Office of the National Drug Control Policy does not have 
administrative powers or any oversight.
    The USOC often states with great pride that the Government 
does not subsidize their effort, but we should set the record 
straight. Since transfer of the Air Force base to the USOC in 
the 1970's, although we do not directly subsidize, the Federal 
Government has become increasingly involved in the Olympics by 
providing billions, not millions, billions of dollars in 
financial support for international sporting events both here 
in the United States and worldwide, too.
    For the recent Winter Games in Salt Lake City, the Federal 
Government allocated well over $1.3 billion for infrastructure 
improvements, security, and other needs. Compare that with the 
$75 million we allocated for the 1984 Summer Games in Los 
Angeles, or the $609 million that we allocated for the 1996 
Summer Games in Atlanta. More taxpayers' money is spent with 
each passing Olympiad.
    We are also concerned with the continued safety of the U.S. 
athletes. Last year, Senator Stevens and I, while in Athens, 
directly questioned Greek Cabinet ministers, and, in fact, the 
prime minister himself, about the security precautions we were 
helping finance with American dollars for the upcoming Athens 
Olympiad to make sure our team, as well as youngsters and 
officials throughout the world, can compete in a safe 
environment.
    I was literally raised in the Olympic movement and I must 
say that in the over half-century I have been part of it, I 
have never known a time when it has been in more discord. It 
seems for the past 15 years or so most of what I have read 
about the USOC is one problem after another.
    In 1991, Bob Helmick was accused of accepting bribes and 
other improprieties. In the mid-1990's, there was a need to 
hold hearings to make sure the USOC was fulfilling its mission 
of providing equal opportunities for women and minorities. In 
1998, it was the bribery and influence-peddling scandal 
engulfing Salt Lake Winter Olympic bid, and in the last 2 
years, there has been a constant change of leadership. The USOC 
has had three presidents and four CEO's since the year 2000. 
There is no way this country's Government, let alone a business 
or any organization, can survive very long with that kind of 
turnover.
    Clearly, Olympic business is big business. As with any big 
business, the management skills of its leader will determine 
the success or failure of the agenda. To be sure, as I have 
mentioned in other hearings before you, Senator McCain, the 
IOC, the USOC, and the Olympic organizing committees at the 
local level are all different entities, but when the five rings 
are tarnished, we all suffer.
    My commitment to the Olympic ideal did not waver when I 
came to Washington that time, which was no surprise, the USOC 
had problems with money management and a number of other 
things, including accusations by the Colorado Springs Gazette 
of feather-bedding and a number of other improprieties. At that 
time, former Senator Bill Bradley, former Senator Tom McMillan 
and I, who were the three here in Congress who had been on the 
Olympic teams ourselves, we formed a bipartisan caucus with 
other Members who believed in the Olympic ideals to act as sort 
of a buffer against any potential congressional oversight of 
the Olympic team, but because of the money and the man-hours 
provided by the Federal Government and its agencies, and the 
fact that Congress chartered the USOC in 1978 with the passage 
of Senator Stevens' Amateur Sports Act, Congress has a larger 
vested interest in this with each passing year.
    For 20 years, I have opposed any Federal oversight over the 
USOC's decisionmaking process, but Mr. Chairman, I think the 
time has come to rethink that position. We in Congress do not 
demand that our team wins gold medals, but we do have the 
expectation that USOC officials keep the goals and be an 
inspiration for personal conduct of our young athletes. My 
ideal of the Olympic movement should promote unity, 
camaraderie, sportsmanship, citizenship, and character, and 
this Olympic-sized food fight of incessant squabbles and 
internal dissension are not indicative of the Olympic ideals as 
I understand them, and can only hurt the athletes.
    I tell every official in the audience today that this is 
not your personal team. I will tell you who it does belong to, 
though, in my view. It belongs to every boy and girl who, as we 
speak, are working their hearts out on sandlots, wrestling 
mats, on tennis courts and swimming pools across America and 
dreaming of the day that somewhere, sometime, they, too, will 
be able to march into a stadium behind our flag. It belongs to 
all of the moms and dads who drive endless miles and wait 
endless hours and make endless sacrifices so the dreams of 
their kids can come true. It belongs to every American donor 
and sponsor, from those who give $1 to those who give millions, 
who have followed the rags to fame stories of Jim Thorpe and 
Jessie Owens, of Bob Mathias, and Mohammed Ali, and Mark Spitz, 
and Wilma Rudolf, and Florence Griffiths Joyner, who is a great 
friend of mine, and all of those athletes for over a century 
who have personified what is supposed to be best in America.
    The Olympic motto of citius, altius, fortius must not 
become citius, altius, fortius, and devious. The USOC has lost 
its way, and I am beginning to believe, with some of my 
colleagues, that a little Government oversight is not a bad 
idea. I have spoken to three of the people that resigned from 
the Ethics Committee, and really from the standpoint of 
regardless of who is in charge, the lines of authority seem to 
be very unclear, and it looks to me like they need some major 
structural changes.
    I have declined to speak with a couple of the antagonists, 
by the way, Mr. Chairman, who have, I think, complicated the 
issue by already hiring attorneys. This is not a court of law 
and, quite frankly, the introduction of the attorneys tells me 
that there is already some degree of movement toward lawsuits, 
which I think can only complicate it and make it all the worse, 
and turn a media fiasco into something worse than it already 
is.
    So I thank you once again, Mr. Chairman, for this hearing. 
I look forward to the testimony of our speakers.
    The Chairman. Thank you, Senator Campbell, and we 
appreciate your very strong statement, and we look forward to 
working with you and Senator Stevens and Senator Wyden and 
other Members of this Committee as we address this very 
difficult issue, which you described in such compelling terms.
    Senator Breaux.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you, Mr. Chairman, and thank you very 
much for convening this very timely and, I think, very, very 
important hearing. The Olympics, as most all Americans and, 
really, all people around the world has always been an 
organization and a set of games every 4 years that the people 
of the world have always looked up to with great admiration and 
great inspiration.
    I have been involved, along with a number of our colleagues 
at the dais, in helping to raise funds here in this city on a 
regular basis for the Olympic Committee, and we have been very 
successful because we have always been able to tell the 
sponsors and the participants that the Olympics are about the 
very best in society. The Olympics bring out the very best in 
humanity, the right to compete on a level playing field with 
the nations and athletes from all over the world, and so I have 
always had an extremely high view of everything that the 
Olympics represents. It has always inspired me.
    When you hear the stories of the athletes it brings tears 
to your eyes to look at the sacrifices that they have made to 
be able to compete in a world forum and be successful, being 
successful just by competing, but today, apparently, we are 
finding out that the organization that we require to put on 
these wonderful games is in itself becoming dysfunctional, and 
that is completely and totally unacceptable.
    We saw the problems with the International Olympic 
Committee that they have had, and that was very disturbing, and 
I always felt, well, it is not going to happen here, because 
our people are really above that, and yet we are finding out 
that perhaps that is not true. I think that the games are 
always about bringing out the very best in the athletes that 
compete, so we certainly can expect no less of a standard for 
those who put on those games. The hearing today that the 
Chairman has called is to look at ways in which we can help 
bring back those standards not just to the athletes but also to 
the people who are in charge of the games themselves, and 
hopefully out of all of this bad news can come a good 
resolution to a very difficult problem.
    Thank you.
    The Chairman. Senator Smith.

                STATEMENT OF HON. GORDON SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. There is a 
statement, a publication by the U.S. Olympic Committee 
entitled, ``What is the United States Olympic Committee?'' They 
answer the question, you, the American people, are the United 
States Olympic Committee. You understand that the Olympic Games 
are a shining example for so many that are good in our world. 
Peace, harmony, and unity are words that go hand-in-hand with 
the ideals of the Olympic movement, and you are committed to 
ensuring that we set the tone for instilling those ideals in 
all of our outreach efforts. You have bestowed upon us one of 
the country's most precious commodities, the Olympic and 
Paralympic dreams of young men and women from every corner of 
the United States.
    Mr. Chairman, that is a wonderful statement of purpose, but 
if we have instilled in the committee the precious commodity of 
the dreams of our young people, it seems to me the conduct of 
some in the committee are turning those dreams into a 
nightmare, and so I thank you for holding this hearing, because 
maybe we can put some light and heat where it belongs and maybe 
change some conduct for the future.
    Thank you.
    The Chairman. Thank you.
    Our first panel is Mr. Kenneth Duberstein, chairman of the 
USOC Ethics Committee, Mr. Thurgood Marshall, who is the vice 
chairman of the USOC Ethics Committee. Mr. Duberstein, we will 
be glad to hear any opening statements that you may make, 
followed by Mr. Marshall. Welcome to the Committee.

              STATEMENT OF KENNETH M. DUBERSTEIN, 
                CHAIRMAN, USOC ETHICS COMMITTEE

    Mr. Duberstein. Thank you, Mr. Chairman and Members of the 
Committee. Thank you for inviting me to appear before you this 
afternoon. I am proud of my years of volunteer service with the 
United States Olympic Committee and am proud of the Ethics 
Oversight Committee report of January 10, 2003. Doing what is 
right is not always popular, but we called them as we saw them 
and we did it unanimously, 10 for 10, no asterisks, no 
dissents, no motions to revise and extend.
    As an outgrowth of the so-called Mitchell Commission on 
which I served as vice chairman, I was asked to chair the 
USOC's Ethics Oversight Committee 2 years ago by former 
President Sandra Baldwin. It certainly has not been a dull 
time. In light of recent events, many have asked me why I have 
been willing to serve as the chairman, why take on this 
thankless, endless task. I will admit I have asked myself the 
same question more than once recently. It certainly is not 
because of my athletic prowess.
    I may be old-fashioned, but I believe deeply in the spirit 
of Olympic movement, the dreams of kids growing up, going for 
the gold, and the bridges built between nations by healthy, 
athletic competition. Anyone who has attended the Olympics or 
watched it on NBC cannot help but be touched by the patriotism, 
the dedication of the athletes, and the true joy of the 
competition.
    Mr. Chairman, Members of the Committee, on this day devoted 
to the state of the Union we all have but a simple wish for the 
state of the USOC. We hope its leadership would be as strong 
and as principled as that of our President and the bipartisan 
leadership of the Congress.
    Now let us turn, Mr. Chairman, specifically to the 
independent Ethics Committee report, the findings of our 
outside attorney, Fred Fielding, who led the investigation, and 
the unanimous consensus of the 10 members of our panel. The 
Ethics Committee action to review the alleged inappropriate 
conduct of the CEO, Lloyd Ward, was initiated at the request of 
President Marty Mankamyer by phone, and Ethics Compliance 
Officer Pat Rodgers in writing in October 2002.
    On October 24, after a telephonic committee meeting where 
we were briefed by Ethics Compliance Officer Rodgers, the full 
Ethics Oversight Committee authorized Mr. Rodgers to retain on 
the committee's behalf outside legal representation to lead the 
independent investigation. We unanimously agreed with Rodgers' 
recommendation to retain Fred Fielding, the former counsel to 
the President of the United States, to conduct the 
investigation and report back to the committee on his findings.
    Mr. Rodgers subsequently informed me that President 
Mankamyer felt that Mr. Fielding was the right choice to do 
this investigation, and the committee was authorized to retain 
Mr. Fielding. Our charge to Mr. Fielding was to get to the 
bottom of this, leave no stone unturned, let the chips fall 
wherever they may.
    Mr. Fielding carried out his investigation with vigor and I 
think with great integrity. He asked for an expansion of the 
scope of the investigation when it became apparent to Mr. 
Fielding that other USOC individuals had an involvement in the 
Ward matter, including Ethics Officer Pat Rodgers. When it 
became apparent to Mr. Fielding that Mr. Rodgers was factually 
involved, and that he and Mr. Ward had disagreed over Rodgers' 
work performance, the Ethics Officer, at the request of the 
entire Ethics Committee, agreed not to further participate in 
the committee's deliberations.
    I also requested, with the encouragement of the entire 
committee, that President Mankamyer not participate in any 
committee deliberations after our first meeting of October 24. 
Mr. Rodgers had approved President Mankamyer's initial 
participation because the president was, I was told, an ex 
officio member of all committees, but members of the committee 
and I, and members of the Executive Committee had received 
reports that she was discussing the review and the initial 
allegations with individuals outside of the Ethics Oversight 
Committee.
    On November 22, I requested that Mr. Fielding prepare a 
written summary of his fact-gathering so that all members of 
the committee could have complete access to his investigatory 
report. I spoke with President Mankamyer shortly before 
Christmas. At that time, she told me she had scheduled an 
Executive Committee meeting for January 13, 2003, at which time 
the Executive Committee would consider disciplinary action 
against Lloyd Ward, and she expected the Ethics Committee to 
conclude its deliberations 2 weeks before then. I told her we 
would do our best, but I could not promise that.
    The Ethics Committee met on December 23 and reviewed Mr. 
Fielding's oral and written report. In addition to the review 
of Mr. Ward's conduct, the Ethics Committee now had to deal 
with the finding based on Mr. Fielding's oral and written 
report, and their own experience during the review, that two 
individuals, Ethics Compliance Officer Rodgers and USOC 
President Mankamyer tried to use the ethics process to advance 
their own agendas. We agreed as a committee that Mr. Fielding 
and Mr. Thurgood Marshall, Jr., on my left, the vice chairman 
of the committee, would draft a proposed statement based on the 
USOC's code of ethics, citing Mr. Ward's conduct, and creating 
the appearance of a conflict of interest. Mr. Ward's failure to 
make a written disclosure of the potential financial interest 
of his brother when he filed his annual disclosure in July 
2002, the failure of Mr. Rodgers to do timely compliance 
counseling of Mr. Ward, which could have helped avoid all of 
this, and the committee's concern about the leaks over our 
investigation and our commitment to ensuring the integrity and 
confidentiality of our committee processes.
    We did not exonerate Lloyd Ward, nor did we allow President 
Mankamyer or Ethics Compliance Officer Rodgers' actions to go 
unnoticed. We met for a final time by phone on January 8, 2003, 
during which we reviewed the draft document and went through 
each of the proposed findings one by one, line by line, and 
word by word. We voted on the phone unanimously to approve the 
report in its entirety. When I reached President Mankamyer she 
thanked me for the committee's good work and said we had done 
an outstanding service to the USOC Olympic movement. She 
expressed special appreciation for the unanimity of our 
conclusions.
    Our responsibilities were to determine the facts and arrive 
at conclusions based on those facts. Our understanding from 
President Mankamyer and Ethics Officer Rodgers was that it was 
the role of the Executive Committee to decide on what action, 
if any, was to be taken on the entire matter based on our 
findings and the confidential investigatory report by Fred 
Fielding and our report. The Executive Committee, in its 
meeting on January 13, it has been reported to me voted 18 to 3 
to approve our findings and conclusions and to express the 
committee's appreciation for a job well done. This saga clearly 
demonstrates how much further the USOC must go to establish 
truly a sound governing structure with high ethical standards.
    President Reagan years ago reminded me to always do the 
right thing. Do not back off from your principles, stay true to 
your beliefs. People may try to push you one way or the other 
toward their interest or their desires. ``You must stay the 
course,'' he told me, ``and do what you think is right.'' We 
stayed the course.
    Mr. Chairman and Members of the Committee, the Ethics 
Oversight Committee tried hard to drive a tough and fair 
conclusion through the warring factions of the USOC. I believe 
our outcome was right, but as we can all see, it has brought no 
resolution, just fighting at a new level in new forums. It is 
sad, and it is time to start over. Congress should lead the way 
in redesigning the USOC. Even a thick-skinned former White 
House Chief of Staff has learned yet again the hard way that no 
good deed goes unpunished. If the Olympic flame burns brightly 
again in the United States, as I believe it will, then it will 
all have been worth the price.
    Thank you, Mr. Chairman. Can I turn it over to Mr. 
Marshall?
    [The prepared statement of Mr. Duberstein follows:]

        Prepared Statement of Kenneth M. Duberstein, Chairman, 
                         USOC Ethics Committee
    Mr. Chairman and Members of the Committee, thank you for inviting 
me to appear before you this afternoon.
    I am proud of my years of volunteer service with the United States 
Olympic Committee and am proud of the Ethics Oversight Committee Report 
of January 10, 2003. Doing what is right is not always popular but we 
called them as we saw them and we did it unanimously! 10 for 10. No 
asterisks. No dissents. No motions to ``revise and extend.''
    Some years ago, former USOC President Bill Hybl asked me to serve 
with former Senate Majority Leader George Mitchell on the ethics panel 
for the USOC. Later, in 1998, Senator Mitchell and I led a Special 
Commission of distinguished Americans to recommend reform of the IOC 
and the USOC in light of the bid selection scandal in Salt Lake City. 
This threemonth volunteer assignment turned out to take almost two 
years, including testimony before this Committee and others. Our wide-
ranging report, I believe resulted in fundamental and positive change 
in both organizations.
    As an outgrowth of the Mitchell Commission, I was asked by former 
President Sandra Baldwin to chair the USOC's reconstituted Ethics 
Oversight Committee two years ago. It has not been a dull time, with 
her resignation, the vetting of her potential successors, overseeing 
the bid city selection process for 2012, the selection of Marty 
Mankamyer, and now the current matter.
    In light of recent events, many have asked why I've been willing to 
serve as chairman. After all, it's not as if my life isn't chock full 
of wonderful, rewarding assignments. Why take on this thankless task? 
I'll admit I've asked myself the same question more than once recently.
    It certainly isn't because of my athletic prowess! I may be old-
fashioned but I believe deeply in the spirit of the Olympic Movement, 
the dreams of kids growing up to go for the gold and the bridges built 
between nations by healthy athletic competition. Anyone who has 
attended an Olympics or watched it on NBC can't help but be touched by 
the patriotism, the dedication of the athletes and the true joy of the 
competition.
    Mr. Chairman, Members of the Committee, on this day devoted to the 
State of the Union, we all have a simple wish for the state of the 
USOC. We hope its leadership would be as strong and as principled as 
that of our President and the bipartisan leadership in Congress.
    Now, let's turn specifically to the independent Ethics Committee 
and our report, the findings of distinguished attorney Fred Fielding, 
who led the investigation and the unanimous consensus of the 10 members 
of our panel.
    The Ethics Committee action to review the alleged inappropriate 
conduct of the CEO Lloyd Ward was initiated at the request of President 
Marty Mankamyer by phone and Ethics Compliance Officer Pat Rodgers in 
writing in October, 2002. On October 24, after a telephonic committee 
meeting where we were briefed by Ethics Compliance Office Rodgers, the 
full Ethics Oversight Committee authorized Mr. Rodgers to retain on the 
Committee's behalf outside legal representation to lead the independent 
investigation. The Committee unanimously agreed with Rodgers 
recommendation to retain Fred Fielding of Wiley, Rein & Fielding, a 
former counsel to the President of the United States, to conduct the 
investigation and report back to the Committee on his findings. Mr. 
Rodgers subsequently informed me that President Mankamyer felt Mr. 
Fielding was the right choice to do this investigation and the 
committee was authorized to retain Mr. Fielding.
    Mr. Fielding was previously retained by the Ethics Oversight 
Committee last summer to vet the candidates for President, created by 
the resignation of Sandra Baldwin. He did his usual thorough 
evaluation, which I subsequently used as the basis for my presentation 
to the Executive Committee on July 29, 2002.
    Our charge to Mr. Fielding was to get to the bottom of this. Leave 
no stone unturned. Let the chips fall wherever they may.
    Mr. Fielding carried out his investigation with vigor and his usual 
great integrity. He asked for an expansion of the scope of the 
investigation when it became apparent to Mr. Fielding that other USOC 
individuals had an involvement in the Ward matter, including Ethics 
Officer Pat Rodgers. When it became apparent to Mr. Fielding that Mr. 
Rodgers was factually involved and that he and Mr. Ward had disagreed 
over Rodgers' work performance, the Ethics Officer, at the request of 
the entire and unanimous Committee, agreed not to further participate 
in the Committee's deliberations.
    I also requested, with the encouragement of the entire committee 
that President Mankamyer not participate in any of the committee 
deliberations after our first meeting on October 24. Mr. Rodgers had 
approved President Mankamyer's initial participation because the 
President was, I was told, an ex officio member of all committees. But 
members of the Committee, and I, and members of the Executive 
Committee, had received reports that she was discussing the review and 
the initial allegations with individuals outside of the Ethics 
Oversight Committee.
    Upon completion of Mr. Fielding's interviews on November 21, he 
made a brief telephone report to me with Mr. Rodgers present on the 
phone line. On November 22, I requested that Mr. Fielding prepare a 
written summary of his fact gathering so that all members of the 
Committee could have complete access to his investigatory report.
    I began receiving numerous phone messages from President Mankamyer 
urging me to hurry up with the Committee's report to the Executive 
Committee so that it could consider appropriate disciplinary action 
against Mr. Ward. I did not return these calls initially because of our 
earlier decision to go forward without the participation of President 
Mankamyer.
    I spoke with President Mankamyer shortly before Christmas. At that 
time she told me that she had scheduled an Executive Committee meeting 
for January 13, 2003, at which time the Executive Committee would 
consider disciplinary action against Lloyd Ward and she expected the 
Ethics Committee would conclude its deliberations two weeks before 
then. I told her we would do our best but I could not promise that.
    The Ethics Committee met by phone on December 23rd and reviewed Mr. 
Fielding's oral and written report. In addition to the review of Mr. 
Ward's conduct, the Ethics Oversight Committee now had to deal with the 
finding based on Mr. Fielding's oral and written report and their own 
experience during the review that two individuals, Ethics Compliance 
Officer Patrick K. Rodgers and USOC President Marty Mankamyer, tried to 
use the ethics process to advance their own agenda.
    We agreed as a Committee that Mr. Fielding and Mr. Thurgood 
Marshall, Jr., Vice Chairman of the Ethics Committee, would draft a 
proposed statement based on the USOC's code of ethics, citing Mr. 
Ward's conduct, creating the appearance of a conflict of interest, Mr. 
Ward's failure to make a written disclosure of the potential financial 
interest of his brother when he filed his annual disclosure in July, 
2002, the failure of Mr. Rodgers to do timely compliance counseling of 
Mr. Ward which could have helped avoid all this, the Committee's 
concern about the leaks over our investigation and our commitment to 
ensuring the integrity and confidentiality of our committee's 
processes.
    We did not exonerate Lloyd Ward, nor did we allow President 
Mankamyer's or Ethics Compliance Officer Rodgers' actions to go 
unnoticed.
    We met for a final time by phone on January 8, 2003, during which 
we reviewed the draft document and went through each of the proposed 
findings one by one, line by line, word by word.
    ``After receiving and reviewing the attached Report * from the 
Special Counsel, the USOC Code of Ethics, and further discussions, the 
Committee unanimously now concludes as follows:
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Mr. Ward's conduct, in requesting a USOC employee to consider 
providing assistance to his brother in a commercial venture, created 
the appearance of a conflict of interest.
    Mr. Ward failed to make a written disclosure of the potential 
financial interest of his brother when he filed his annual disclosure 
in July 2002.
    There was a serious lack of sensitivity in the enforcement of the 
USOC Ethics Code in April 2002, when Mr. Ward's request to a USOC 
employee was first revealed, and which could have been easily corrected 
without a breach of the reporting requirements and/or further activity 
by Mr. Ward or any USOC employee, by the timely compliance counseling 
of Mr. Ward as to his ethical obligations and restrictions.
    The Ethics Oversight Committee is gravely concerned about the 
recent public disclosures regarding the existence of its current 
investigation and the comments and speculations attributed to officials 
of the USOC in regard to the same. This conduct is contrary to the USOC 
Code of Ethics and reflects a purposeful disregard of the spirit and 
purpose of the ethics program and the Committee's charter. The 
Committee deeply resents any attempt to abuse its process and use that 
process for other purposes.
    Only members of the Ethics Oversight Committee should participate 
in the business of the Committee or its meetings, unless participation 
by others is specifically requested by the Chair of the Committee; this 
would exclude ex officio members from participating in Committee 
business or meetings unless specifically requested by the Committee 
Chair.
    The USOC Executive Committee and the USOC family are reminded that 
all matters pending before the Ethics Oversight Committee are 
confidential and should be maintained as such in order to protect the 
privacy of individuals involved and pursue the effectiveness of the 
ethics enforcement program.''
    We voted on the telephone unanimously to approve the report in its 
entirety. The report was signed by: Kenneth M. Duberstein, Chair; 
Thurgood Marshall, Jr., Vice Chair; Thomas McLarty, Vice Chair; 
Nicholaas Peterson, Athlete Representative; Reynd Quackenbush, Athlete 
Representative; Dan Knise; John T. Kuelbs; Edward Petry; Stephen D. 
Potts; and Malham Wakin.
    We agreed that the revised draft would be re-circulated by Mr. 
Marshall the next day and he would await e-mails or telephone call 
changes or corrections until 10:00 a.m. January 10th, at which time I, 
as chairman, would call Lloyd Ward and each of the 6 officers of the 
Executive Committee (Marty Mankamyer, Frank Marshall, Bill Martin, 
Herman Frazier, Bill Stapleton and Paul George), read them the report 
and inform them we had decided that the report should speak for itself 
and that none of us would attend the Executive Committee meeting in 
Denver on January 13th. As a Committee we had agreed not to answer 
questions but simply to let everyone read our report.
    No one mailed or called in any revisions whatsoever, so I began my 
phone calls at approximately 11:00 a.m., January 10th. I reached Lloyd 
Ward first and completed the final call about 4:30 p.m. EST when Marty 
Mankamyer returned my call (I had placed the call to her shortly after 
my conversation with Lloyd Ward). She thanked me for the Committee's 
good work and said we had done outstanding service to the USOC Olympic 
Movement. She expressed appreciation for the unanimity of our 
conclusions.
    Our responsibilities were to determine the facts and arrive at 
conclusions based on those facts. Our understanding from President 
Mankamyer and Ethics Officer Rodgers was that it was the role of the 
Executive Committee to decide on what action, if any, was to be to 
taken on this entire matter, based on the findings and the confidential 
investigatory report by Fred Fielding and our report.
    The Executive Committee in its meeting on January 13th voted 18-3 
to approve our findings and conclusions and to express the Committee's 
appreciation for a job well done by the independent Ethic Oversight 
Committee.
    As Chairman of the Ethics Oversight Committee, I supported every 
effort to maintain the integrity of the Ethics review. However two 
issues have been raised relative to my participation.
    Lloyd Ward is on the Board of General Motors, one of the first 
clients of The Duberstein Group and a client now for over 13 years. 
While I knew somewhere in the back of my mind that he joined the Board 
in the last couple of years, it created no pressure on my decision 
making. It was not even considered. At no time did it occur to me that 
the work of my firm might create a personal conflict. We have no 
business dealings with the Board, only with management.
    Parenthetically, the names of all our clients have always been a 
matter of public record.
    General Motors, as you know, is a major sponsor of the USOC. When 
you think it through, GM does have an interest in the result of our 
work. Its interest is the integrity of the USOC. Period.
    The second issue involves the fact that I did not sign and file 
USOC Volunteer Annual Disclosure Certification in 2002.
    The Committee should understand that the USOC Volunteer Annual 
Disclosure Certification is not a request to disclose assets and 
business relationships. It is simply a request to disclose known 
conflicts. I do not recall that I was asked to sign such a statement 
when George Mitchell and I headed up our review. Nor do I recall being 
asked to sign such a statement when I was made chair of the Ethics 
Oversight Committee. To this date, no one has ever personally talked to 
me about signing one.
    A review of the e-mail files at The Duberstein Group has revealed 
that my assistant was emailed the one and one-half page form in October 
of last year, about three months ago. It was not given to me. Had I 
received it, I would have checked the box indicating that I knew of no 
conflict and signed it.
    This entire saga clearly demonstrates how much further the USOC 
must go to establish truly a sound governance structure with high 
ethical standards.
    President Reagan years ago reminded me to always do the right 
thing. Don't back off from your principles. Stay true to your beliefs. 
People may try to push you one way or the other towards their interest, 
their desires. You must ``stay the course'' and do what you think is 
right.
    I believe the Ethics Oversight Committee did the right thing. We 
stayed on course.
    Even a thick-skinned former White House Chief of Staff has learned 
again the hard way that no good deed goes unpunished. If the Olympic 
flame burns brightly again in the United States, as I believe it will, 
then it will have been well worth the price.

    The Chairman. Thank you. Mr. Marshall, and if you could--
your complete statement will be made a part of the record. If 
you could summarize, we have another panel after you. Thank 
you.

      STATEMENT OF THURGOOD MARSHALL, JR., VICE CHAIRMAN, 
                     USOC ETHICS COMMITTEE

    Mr. Marshall. Mr. Chairman, thank you very much for the 
invitation to appear before the Commerce Committee this 
afternoon. I commend you and the Members of this Committee for 
your continued involvement in issues that pertain to the United 
States Olympic Committee. I also want to acknowledge Senator 
Stevens for his decades of leadership in the field of amateur 
sports.
    I am appearing before you in my capacity as vice chair of 
the USOC Ethics Committee. As Mr. Duberstein indicated, the 
Ethics Committee was created in the wake of the Salt Lake 
Olympic bid scandal. Staff support is provided by the USOC 
Compliance Officer, and our duties include the establishment 
and implementation of training and governance programs as well 
as investigating specific allegations of ethics compliance and 
allegations of ethics violations related to performance of 
duties of the USOC members and staff.
    Last year, for example, the compliance officer and the 
Ethics Committee played a significant role in developing 
unprecedented comprehensive governance plans that were applied 
to the bid city process that culminated in the selection of New 
York City as the candidate city to host the 2012 Olympic and 
Paralympic Games.
    I fully participated in the deliberations of the Ethics 
Committee that gave rise to our January 10 report. As Mr. 
Duberstein mentioned, I worked with Mr. Fielding to draft 
language for the Ethics Committee to consider, and I worked 
with Mr. Fielding to draft the final report language. I remain 
fully satisfied with the contents of that report. I am also 
confident that the process that we undertook to produce that 
report was thorough and fair.
    Our report did not address the issue of sanctions in 
connection with the conduct of Mr. Ward or any other 
individuals, and I believe that the issue of sanctions was 
appropriately left to the judgment of the Executive Committee. 
Our committee did not, for example, characterize the 
allegations as a technical violation. That is not language that 
is contained in our report.
    I understood that our task was to investigate the facts 
associated with the allegations concerning Mr. Ward, and to 
render our assessment of those facts. That is precisely what we 
did. As our committee report makes clear, our interpretation of 
the facts indicated that Mr. Ward's conduct created an 
appearance of a conflict of interest. We also found that there 
were mitigating circumstances, and the record reflects that the 
USOC Executive Committee accepted our interpretation and 
determined appropriate sanctions.
    I would like to take also one moment to address several 
issues that have arisen in connection with the work of our 
committee, and specifically with regard to Mr. Duberstein. I am 
familiar with the concerns that have been raised. Each of those 
concerns is utterly inconsistent with the way in which our 
committee proceeded and it is inconsistent with Mr. 
Duberstein's overall stewardship of the Ethics Committee. At no 
point did Mr. Duberstein influence our deliberations in an 
improper way. Moreover, as befits such a committee, each of its 
members are independent and has had an independent 
communication with the USOC Compliance Officer.
    For example, I would have been quick to question Mr. 
Duberstein or others involved in our process had any concerns 
crossed my mind, and I believe that each of my colleagues on 
the Ethics Committee has felt similarly free to raise concerns 
as warranted. I questioned Mr. Duberstein extensively, for 
example, about the recusal of Mr. Rodgers until I was satisfied 
with that course of action.
    On the broader issues regarding USOC interaction with its 
major corporate sponsors, I submit that the interaction of the 
USOC with such sponsors raises some concerns that are far more 
complicated than the commentators would have us believe.
    Finally, I remain committed to the mission of the USOC and 
the important role that it plays in developing, training, and 
nurturing our Nation's athletes. It is because of that belief 
in the importance of that mission that I am hopeful that 
through the congressional oversight process major improvements 
can be made.
    [The prepared statement of Mr. Marshall follows:]

   Prepared Statement of Thurgood Marshall, Jr., Vice Chairman, USOC 
                            Ethics Committee
    Mr. Chairman, thank you for the invitation to appear before the 
Commerce Committee this afternoon. I commend you and Senator Hollings 
and the Members of this Committee for your continued involvement in 
issues that pertain to the United States Olympic Committee. I also want 
to acknowledge Senator Stevens for his decades of leadership in the 
field of amateur sports.
    My name is Thurgood Marshall Jr., and I am a partner with the law 
firm of Swidler Berlin Shereff Friedman LLP. I am appearing before you 
in my capacity as one of the two Vice Chairs of the Ethics Oversight 
Committee (``Ethics Committee'') of the United States Olympic Committee 
(``USOC''). I have served on the Ethics Oversight Committee and as its 
Vice Chair for approximately two years.
    The USOC Ethics Committee was created in the wake of the Salt Lake 
Olympic bid scandal. It is comprised of ten uncompensated volunteers. 
Staff support is provided by the United States Olympic Committee 
Compliance Officer. The Compliance Officer is responsible for the 
management of the USOC Ethics and Compliance Program. Those duties 
include the establishment and implementation of training and governance 
programs, as well as investigating specific allegations of ethics and 
compliance related issues. Last year, for example, the Compliance 
Officer and the Ethics Committee played a significant role in 
developing comprehensive governance plans that were applied to the bid 
city process that culminated in the selection of New York City as the 
candidate city to host the 2012 Olympic and Paralympic Games.
    The Chief Compliance Officer reports to the Chief Executive Officer 
for matters related to USOC staff and to the Ethics Committee and the 
USOC President for matters related to volunteers, member organizations, 
and the Chief Executive Officer. Any person or member organization that 
violates or condones the violation of the USOC Code of Ethics is 
subject to disciplinary measures, which may include termination. The 
Ethics Committee is charged with reviewing violations of the Code of 
Ethics.
    As a member of the Ethics Committee, I participated in the 
deliberations giving rise to our recent report, dated January 10, 2003, 
a copy of which was made public by the USOC on January 13, 2003. I 
first became aware of allegations regarding the USOC Chief Executive 
Officer, Lloyd Ward, in the Fall of 2002. The Ethics Committee convened 
by teleconference on four occasions to review the allegations, once 
each month from October 2002 to January 2003. I was out of the country 
and unable to participate in the teleconference that occurred in 
November 2002. With that exception, I fully participated in the 
deliberations of the Ethics Committee. I concurred in the decision to 
retain Fred Fielding to conduct a factual investigation into the 
allegations regarding Mr. Ward. I also reviewed and approved of the 
unanimous report that the Ethics Committee provided to the USOC 
Executive Committee for consideration at its January 13, 2003 meeting.
    Consistent with our deliberations, I worked with Mr. Fielding to 
draft language for the Ethics Committee to consider during our 
teleconference on January 8, 2003. I also worked with Mr. Fielding to 
draft the final report language that the Ethics Committee approved 
unanimously on January 9 and 10. Other than to offer a technical 
addition, Mr. Duberstein did not participate in the drafting of the 
language contained in our report. I would note that the Ethics 
Committee also agreed to include as an attachment to its report a 
memorandum prepared by Fred Fielding which reflected the results of his 
investigation of the facts surrounding the allegations against Mr. 
Ward.
    As a matter of process, our Committee authorized Mr. Duberstein to 
contact the USOC officers individually on January 10, 2003, and to 
recite to them the contents of our report. I handled the formal 
transmittal of the hard copies of our report and the Fielding 
Memorandum to the USOC officers and the membership of the USOC 
Executive Committee. I completed that task on January 12, 2003, with 
delivery of sealed copies of the documents to Mark Levinstein, who 
served as Counsel to the USOC Executive Committee.
    I have reviewed the contents of the Ethics Committee report and the 
Fielding memorandum as recently as last night. I remain fully satisfied 
with its contents. I am also confident that the process that we 
undertook to produce that report was thorough and fair. Our report did 
not address the issue of sanctions in connection with the conduct of 
Mr. Ward or any other individuals and I believe that the issue of 
sanctions was appropriately left to the judgment of the Executive 
Committee. I understood that our task was to investigate the facts 
associated with the allegations concerning Mr. Ward and to render our 
assessment of those facts. That is precisely what we did. As our 
Committee report makes clear, our interpretation of the facts indicated 
that Mr. Ward's conduct created an appearance of a conflict of 
interest. We also found that there were mitigating circumstances. The 
record reflects that the USOC Executive Committee accepted our 
interpretation and determined appropriate sanctions.
    As he has on previous occasions with respect to other matters that 
have come before our Committee, Fred Fielding agreed to undertake an 
investigation and to submit his findings to us. He did so in the 
thorough manner that we have come to expect from him. He presented his 
findings to us by written report and made himself available to respond 
to our questions on each of our conference calls. I am satisfied that 
Mr. Fielding pursued all relevant issues during the course of his 
investigation. He was not constrained in any way. In fact, Mr. Fielding 
asked for and was granted permission to expand his charter to permit 
additional interviews of others potentially having knowledge of the 
alleged incident.
    I would like also to take a moment to address several issues that 
have arisen in connection with the work of our Committee and 
specifically with regard to Mr. Duberstein. I am familiar with the 
concerns that have been raised. Each of those concerns is utterly 
inconsistent with the way in which our Committee proceeded and is 
inconsistent with Mr. Duberstein's overall stewardship of the Ethics 
Committee. At no point did Mr. Duberstein influence our deliberations 
in an improper way.
    Moreover, as befits such a Committee, each of its members is 
independent and has had independent communication with the USOC Ethics 
Compliance Officer. I would have been quick to question Mr. Duberstein 
or others involved in our process had any concerns crossed my mind, and 
I believe that each of my colleagues on the Ethics Committee has felt 
similarly free to raise concerns as warranted. For example, I 
questioned Mr. Duberstein extensively about the recusal of Mr. Rodgers 
until I was satisfied with that course of action.
    On the broader issues regarding USOC interaction with its major 
corporate sponsors, I submit that the interaction of the USOC with such 
sponsors raises some issues that are far more complicated than the 
commentators would have us believe.
    I remain committed to the mission of the USOC and the important 
role that it plays in developing, training and nurturing our Nation's 
Olympic athletes. It is because of the importance of that mission that 
I am hopeful that through the Congressional oversight process 
improvements can be made.

    The Chairman. Thank you very much, Mr. Marshall, and I 
thank both of you for being here. I guess it is important for 
the record to point out that both of you serve voluntarily on 
this committee and without compensation.
    Mr. Duberstein. Yes, sir.
    Mr. Marshall. That is correct.
    The Chairman. Now let us talk about the report here. In the 
USOC constitution and bylaws of the Ted Stevens Olympic and 
Amateur Sports Act, USOC Code of Ethics, it says in chapter 19, 
Ethics Oversight Committee, there shall be an Ethics Oversight 
Committee. The responsibility of the Ethics Oversight Committee 
shall be A, B, C, and then D, to review and investigate such 
matters relating to ethical practice as it may deem appropriate 
and make recommendations resulting therefrom to the chief 
executive officer concerning employees, and to the Executive 
Committee if concerning the chief executive officer.
    Are you aware of the provisions of this, of the rules and 
regulations governing the Oversight Committee?
    Mr. Duberstein. Mr. Chairman, yes, I am. Yes, we are, but 
let me suggest the following.
    The Chairman. I would like for you to respond to the 
questions when I ask the questions. The question is, why did 
you not make a recommendation as to what action should be taken 
in the course of this investigation?
    Mr. Duberstein. The charge to the committee dated October 
11 was the Ethics Oversight Committee retain outside counsel to 
conduct the necessary interviews, to determine the facts and 
circumstances surrounding the allegation, and provide a report 
of findings to the chair.
    Number 2, President Mankamyer in more than one phone 
conversation said to me, we want your report, we want your 
findings, we want your conclusions, and the Executive Committee 
will determine what disciplinary action, based upon your report 
and findings.
    Number 3, we did not, as a committee, decide exclusively on 
the Lloyd Ward matter, but also about the behavior of President 
Mankamyer and of Ethics Officer Rodgers. We were very 
consistent in our report and our findings and following the 
lead of our charge and the direction from President Mankamyer.
    The Chairman. Well, I respectfully disagree. The subject of 
the Wiley, Rein & Fielding, Mr. Fielding to you from Mr. 
Fielding says, reference internal investigation report, Lloyd 
Ward. Now, I do not know what the instructions from Ms. 
Mankamyer were, but according to the regulations of USOC you 
are supposed to make recommendations. That is why I find Mr. 
Fielding's report so curious.
    Every time I have ever asked for an investigation by 
anyone, my staff or anyone in the GAO, we have always asked for 
recommendations, and I do not know why, frankly, that the USOC 
regulations were not complied with. I would be glad to hear a 
response, if you want.
    Mr. Marshall. I was, at the time of our deliberations and 
throughout my service on the committee, well aware of the 
relevant provisions of the bylaws and, as I mentioned, I 
understood our task to be to assess the facts and to develop 
the facts.
    What I would add, Senator McCain, is that, as Mr. 
Duberstein has indicated, it was not unusual for our committee 
to receive direction as to specific tasks. As recently as 
October, for example, we were tasked with vetting and reviewing 
candidates for elective office at the USOC, and arguably that 
may not have been consistent with the four corners of the 
bylaws, but it was well within our jurisdictional mandate.
    The Chairman. I am not saying you do not have other 
jurisdiction. I am saying that it clearly says your job, the 
Ethics Oversight Committee, is to review and investigate such 
matters relating to ethical practices as it may deem 
appropriate, and to make recommendations resulting therefrom. 
It is clear, and in writing.
    Mr. Duberstein--and again, I cannot understand Mr. 
Fielding's product, which you have touted so highly, as not 
making a recommendation either. That is why we have 
investigations, to make recommendations, not to make judgments, 
but certainly to make recommendations.
    Mr. Duberstein, on January 15, 2003, Mr. Rodgers resigned 
his position as the USOC Chief Compliance Officer and discussed 
with in his view the Executive Committee's failure to properly 
sanction Mr. Ward. In his resignation letter, Mr. Rodgers 
accuses you of telling him to ``find another way to make this 
go away,'' in reference to the ethical allegations levied 
against Mr. Ward. Did you ever encourage Mr. Rodgers to ``find 
a way to make this go away.''?
    Mr. Duberstein. No.
    The Chairman. Given Mr. Rodgers' position as Chief 
Compliance Officer, how would he have been able to make the 
Ward allegations go away?
    Mr. Duberstein. He would not have.
    Mr. Marshall. That is absolutely correct, Senator.
    The Chairman. He could not have made it go away, even if 
you wanted to.
    Mr. Duberstein. And in addition, it is totally inconsistent 
with everything I did in leading the committee, hiring Fred 
Fielding to do the investigation, encouraging him to leave no 
stone unturned. We voted as a committee, not with me on the 
sideline, but unanimously in all of our discussions. There was 
no split vote.
    We said that he did not comply with the code. This is not 
an exoneration. This is not trying to make it go away. If 
anything, it was to go every bit full-square in favor of 
investigating and finding out the facts and making our 
conclusions.
    The Chairman. My colleagues have additional questions. I 
will ask one more question and, if absolutely necessary, I will 
ask more.
    Would you respond to the recent accusation, Mr. Duberstein, 
that your work as a lobbyist for General Motors presented a 
conflict of interest in your role as chairman of the USOC's 
Ethics Committee investigation of Mr. Ward, who is a member of 
the board of General Motors, and why was it not listed in your 
report? I believe it is the Ethics Committee report.
    Mr. Duberstein. Mr. Chairman, Number 1, I believe there was 
no conflict. Number 2, my firm has represented General Motors 
since 1989 and has been registered with the rules of the Senate 
as required since 1989.
    I was generally aware around 2000, 2001 that Mr. Ward had 
joined the board of General Motors. We have no business 
dealings whatsoever with the board of directors. Our firm 
reports to the management and the Government relations staff 
here in Washington.
    Next, there is nothing inconsistent with what I have done 
as far as our work with GM and the actions of the Ethics 
Oversight Committee, and let me quote from my statement, sir, 
if you do not mind.
    The Chairman. I like to quote myself.
    [Laughter.]
    Mr. Duberstein. It created no pressure on any of our 
decisionmaking. It was not even considered. At no time did it 
occur to me that the work of my firm might create a personal 
conflict. As I said, we had no business dealings with the 
board, only with the management, but if I grant you your point, 
or the point you raised, yes, General Motors is a major sponsor 
of the USOC. When you think it through, though, GM has an 
interest in the result of our work. Their interest is the 
integrity of the United States Olympic Committee. It is totally 
consistent with everything that the Ethics Committee wanted to 
do.
    The Chairman. Senator Stevens.
    Senator Stevens. Thank you very much, Mr. Chairman. I have 
been called to the floor, and I would not have time to ask 
questions, and I would yield to Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman.
    Mr. Duberstein, I do not want to make this too rhetorical, 
but you suggested we start over and Congress should lead the 
way. What do you suggest in specifics?
    Mr. Duberstein. Senator Campbell, I think that the conflict 
between volunteers and paid staff, as others have suggested on 
your side, makes the USOC completely dysfunctional. I think you 
need to have a hard-nosed CEO running the place, not a 125-
member board of directors which is dysfunctional, but, rather, 
have a small board with a strong centralized CEO.
    Senator Campbell. I agree. That is a structural change, but 
I am not sure we have the authority to make that structural 
change within USOC.
    Mr. Duberstein. I think the Amateur Athletic Act could 
maybe be amended so that, in fact, you could get a governing 
structure with high ethical standards that works, and that 
works for the athletes, and to focus on the athletes and their 
leadership rather than on all of this dysfunctional fighting.
    Senator Campbell. OK. Well, let me ask a little bit about 
ethics, as Senator McCain has. I did read the booklet Senator 
McCain does have, but I have a U.S. Senate ethics manual, and I 
assume some of the things are rather similar, and that is, here 
in the Senate, if we violate the ethics code we can be rebuked, 
but if we create the appearance that we violated the ethics 
code--whether we violate it or not, if we create that 
appearance we can also be in some pretty deep trouble and, in 
fact, when the attorneys talk to us, the ethics attorneys, they 
tell us that it is our responsibility to prevent the perception 
that we have created some violation. That is how tight our 
structure is. Well, it is obvious somebody did not pass that 
kind of a standard on in the U.S. Olympic Committee.
    Let me--and by the way, I am sure you probably have read 
that. That is on page 66 near the bottom, in paragraph 2 of 
section 37, that that wording comes from. You currently--one of 
your clients is General Motors, is that not correct?
    Mr. Duberstein. Correct.
    Senator Campbell. And General Motors is a major donor to 
the Olympic Committee?
    Mr. Duberstein. Correct.
    Senator Campbell. I am sure Mr. Ward can answer this 
himself, but is Mr. Ward on the board of General Motors, too?
    Mr. Duberstein. I have been told that, since about 2000.
    Senator Campbell. And you do not see that as an appearance 
of a conflict of interest?
    Mr. Duberstein. I do not, sir. I should also say to you 
that there is a USOC volunteer annual disclosure certification 
which I would like to offer for the record.
    The Chairman. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Duberstein. The committee should understand the USOC 
annual volunteer disclosure certification is not a request to 
disclose assets and business relationships. It is simply a 
request to disclose known conflicts. I do not recall that I was 
asked to sign such a statement when George Mitchell and I 
headed up our review of the IOC and the USOC, nor do I recall 
being asked to sign such a statement when I was made the 
chairman of this Ethics Oversight Committee.
    To this date, no one has ever personally talked to me about 
signing one, a review of the e-mails at the Duberstein Group 
have revealed that my assistant was e-mailed the one-and-a-half 
page form in October of last year, about 3 months ago. It was 
not given to me. Had I received it, I would have checked the 
box indicating that I knew of no conflict, and I would have 
signed it.
    Senator Campbell. You made an accusation in your testimony 
in which you said, Mr. Rodgers and Ms. Mankamyer are furthering 
their own agenda. What do you perceive that to be?
    Mr. Duberstein. I perceive, based on phone conversations, 
that President Mankamyer really wanted Lloyd Ward gone from the 
leadership of the USOC as her personal agenda, and that Ethics 
Officer Rodgers was trying to settle some old scores based on a 
bad personnel evaluation given to him by Lloyd Ward.
    Senator Campbell. That brings up perhaps my last question, 
Mr. Chairman. I am not an expert on corporate structure. It 
seems to me kind of unusual, though, that in the case of Mr. 
Rodgers, technically he worked for Mr. Ward, is that correct, 
in a staff capacity?
    Mr. Marshall. Actually, Senator, you alluded to the 
reporting relationships in your statement, and you put your 
finger on, among the many issues that needed to be resolved, a 
serious problem. My understanding of the reporting relationship 
for the Ethics Compliance Officer is that, depending upon 
certain facts, he or she would report to three different 
entities associated with the organization: the CEO, the 
president, and/or the Oversight Ethics Committee. And needless 
to say, in at least this most recent incident, two or three 
were in conflict, and they placed the compliance officer in a 
very difficult position.
    Senator Campbell. Does it not seem unusual--maybe it does 
not to you, but it does to me, unusual to have an employee of 
mine sit on an Ethics Committee that is going to judge my 
behavior? Is there not something structurally wrong with that? 
Does that not put the employee at a very precarious position 
when he has judged my behavior, as his boss?
    Mr. Marshall. Senator, I believe it can, depending upon the 
level of independence associated with that job, but I think you 
are correct.
    Senator Campbell. But that is allowed within the structure 
of the U.S. Olympic Committee, apparently.
    Mr. Marshall. Apparently.
    Senator Campbell. Thank you, Mr. Chairman. I will have some 
further questions in the next round, if I could.
    The Chairman. Thank you. Senator Wyden.
    Senator Wyden. Gentlemen, I am puzzled on a number of 
points, but you all have said there was such unanimity, and 
agreement. If that is the case, why were people resigning from 
the Ethics Committee in protest, issuing these denunciations, 
and why does this turmoil continue if everything is so peachy 
down there?
    Mr. Duberstein. Senator Wyden, I have not spoken to the 
three members of the Ethics Oversight Committee, but I have 
received e-mails from two of them at least. Both of them cite 
their disappointment that the Executive Committee did not have 
more disciplinary action against Lloyd Ward, and on that basis 
they felt that the Executive Committee and the USOC was not 
honoring the code of ethics.
    Senator Wyden. Do you want to add anything to that, Mr. 
Marshall?
    Mr. Marshall. Senator Wyden, I have not discussed the 
reasons for those three resignations with the individuals. I do 
think, as Mr. Duberstein has said, it is entirely conceivable 
that, though these individuals participated in our 
deliberations, signed off on the unanimous report, they were 
concerned about the way in which the report was handled by the 
Executive Committee. I cannot do anything other than speculate.
    Senator Wyden. Now, gentlemen, in your investigation, what 
did you find out about Mr. Ward's brother's company? This is 
important to me, because obviously this goes right to the heart 
of the question of conflict of interest, and I would like to 
know specifically, what did you do on this question of 
investigating Mr. Ward's brother's company?
    Mr. Duberstein. Fred Fielding interviewed Lloyd Ward and 
others to try to determine the business relationship. One of 
the findings that he shared with us, which is in his report, is 
that Lloyd Ward had no financial interest whatsoever in his 
brother's firm, so there was no potential financial gain 
involved.
    Senator Wyden. Do you all find it was a legitimate company? 
Did you find it was a sham company?
    Mr. Duberstein. Fred Fielding did not indicate that it was 
a sham company.
    Senator Wyden. Mr. Marshall, do you want to add anything?
    Mr. Marshall. Senator, from where I sat, I assumed--I 
cannot say assumed the worst about that company, but I assumed 
that the company was focused on this one objective, and assumed 
that there was a plan in place at the company to take full 
advantage of Mr. Ward's position, and I concluded, even with 
that assumption, that Mr. Ward's conduct was as we described 
it, conduct that gave rise to an appearance, period. We found 
nothing in the investigation that indicated that he had a 
personal stake in this.
    Senator Wyden. My last question is, what do you think is 
behind all the problems? These are not happening just by 
osmosis, gentlemen. I mean, there have got to be some factors 
that are producing one ethical misstep after another. I mean, 
it is like there is an ethical blind spot down there, and we 
ask you specific questions--Chairman McCain asked about General 
Motors. I was going to ask a question about recommendations, 
and you all are obviously well-prepared here for these 
questions, but these problems are not happening by osmosis, and 
I think my last question would be, what is behind it, and what 
needs to be done to turn this situation around?
    I would like to hear from each of you. Mr. Duberstein.
    Mr. Duberstein. Senator Wyden, I think the dysfunctional 
governing structure creates so much of this turmoil and so much 
of this jockeying for control of the organization that it makes 
people do bad things. In some ways it is a little bit like what 
White Houses sometimes do to people. There is so much jockeying 
that goes on. It has to stop. You have to focus on the 
athletes, but the way to get to it is by chucking out this 
ridiculous dysfunctional governing structure, and coming up 
with one where there is trust and where there is a single focus 
on the athlete. That is the way to do it, rather than who is 
controlling what.
    Senator Wyden. Well, I am interested in changing these 
organizational boxes around, but it just looks to me like there 
is a culture down there that does not make these ethical 
questions a priority, and that is what I want to see changed, 
and I have not heard either of you speak to anything like that, 
that would send a powerful message that this has got to stop.
    It is going to change. Yes, we will look at the 
organizational structure, but you really want to get at a 
culture that looks like it does not make ethical questions a 
priority.
    Mr. Marshall, do you want to respond to that?
    Mr. Marshall. Well, I cannot add much to what Mr. 
Duberstein said on this point. I want to emphasize that in the 
wake of the Salt Lake Olympic bid scandal a number of ethics 
and compliance programs have been put in place, training 
programs that Mr. Rodgers can speak to on the next panel. It is 
important to note that in this instance the conduct alleged 
with regard to Mr. Ward was raised through the processes that 
have now been put in place at the Olympic Committee. It was 
reviewed consistently. Those processes and sanctions were 
applied.
    Now, part of the problem, though, that brings us here today 
is that there was sort of a breathtaking array of leaks that 
occurred, press leaks, by and large tied to various competing 
factions within the organization. Now, I think we all 
understand that the problem of leaks cannot be completely 
addressed, but I do think that, among others, the general 
counsel, Mr. Benz at the USOC, is trying to address that as we 
speak.
    Senator Wyden. One last question, and I know my time is up, 
Mr. Chairman, Mr. Duberstein, I am of the impression that you 
are serving without submitting an ethics form, is that correct?
    Mr. Duberstein. That is what I said.
    Senator Wyden. Why was that allowed? Why is one allowed to 
serve there without filling out an ethics form?
    Mr. Duberstein. Well, as I said to you, or said a few 
minutes ago, Senator, the committee should understand that the 
USOC volunteer annual disclosure certification is not a request 
to disclose assets and business relationships. It is simply a 
request to disclose known conflicts. I do not recall that I was 
asked to sign such a statement when George Mitchell and I 
headed up the review of the IOC and the USOC, nor do I recall 
being asked to sign such a statement when I was made chairman 
of this Ethics Oversight Committee.
    As you know, Senator, we take very seriously the strictures 
about registering all of our clients, and we do that in the 
U.S. Senate, and we have done that consistently for the 13-1/2 
years in operation. I sign ethics disclosure forms for the 
corporate boards I serve on, as is required.
    As I said, a review of the e-mails at the Duberstein Group 
indicated that my assistant was e-mailed the one-and-a-half 
page statement in October of last year, more than a year and a 
half after I was appointed to the position, and I said to you 
it was not given to me. Had I received it, I would have checked 
the box indicating that I know of no conflict and, of course, I 
would have signed it.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Senator Breaux.
    Senator Breaux. Well, I thank the witnesses. It is hard to 
know where to start in all of this. I was looking at the 
material the committee has prepared for us, and I thought the 
best summary was by David D'Alessandro, chairman of the John 
Hancock Financial Services and, of course, a worldwide sponsor, 
which we desperately need to make the Olympics successful. He 
wrote a seven-page letter to Ward and Mankamyer and said, among 
other things, it is no longer possible to overlook the 
seemingly nonstop turmoil and controversy that afflict your 
organization. It is a dysfunctional family that keeps electing 
a daft cousin or uncle to the top job. Their bureaucracy must 
be blown up and restructured.
    That is a pretty clear recommendation about what should be 
done here, and we are sort of tinkering around the edges about 
whether somebody recommended the brother for a job in another 
country, in the Dominican Republic. It is much more than that, 
is it not?
    Mr. Duberstein. Yes. It goes to the whole dysfunctional 
governance of the institution.
    Senator Breaux. Do either of you disagree with the 
statement I just read from Mr. David D'Alessandro? Is he wrong, 
or is he pretty close to getting it right?
    Mr. Duberstein. I think the answer is, we have to start 
over with the governing structures so that we can reassure not 
only the American public but the athletes and the sponsors that 
everything is being done the right way at the USOC.
    Senator Breaux. We have had four CEO's and three presidents 
since 1999. Does that indicate a problem, or is this just a 
normal turnover?
    Mr. Duberstein. Of course it indicates a problem, Senator 
Breaux.
    Senator Breaux. How do we fix it? I mean, I think all of us 
up here, we are here because we really want to make sure we get 
this right. It is going to take some changes I think in the 
authorizing statute to make it work right. We should look at 
this with the utmost of pride, and you know, it does not sound 
like that is what it is.
    I mean, what kind of legislative recommendations, if any, 
would you give us?
    Mr. Duberstein. I would suggest either the creation of a 
special commission to figure out the governance, or something 
directed by the Commerce Committee that would focus on one 
organization, not two, eliminating a 120-some member board of 
directors so you can get to a group that works, which is 10, 
12, 14.
    Senator Breaux. The board, I take it from your 
investigations, is really just too large to be functional? Is 
it an honorary board to some extent? I mean, it is a great 
honor to be on the board of the USOC, or the IOC, in my 
opinion, but you need more than just an honorary board. I mean, 
you need a real functioning board that is going to make this 
operation work.
    Mr. Duberstein. I would recommend you ask some people in 
the next panel who, in fact, are on the board. We do not serve 
on the board of directors, on the voting board of directors on 
the USOC, but clearly a 125-member board has to be totally 
unwieldy.
    What you need is a small cadre of a board, and you need a 
CEO who has the power and the authority to move things without 
constantly being questioned by 125 members.
    Senator Breaux. Well, I thank you all for your comments in 
all of this. It is much larger than whether one person 
recommended his brother to provide generators in another 
country. It is much bigger than that. I mean, we can look at 
that, and it is sort of symptomatic of a problem, but it is 
really much bigger than that. That is minor in comparison to 
the big picture we are looking at.
    Mr. Duberstein. You and I would certainly agree that ethics 
has to be very high on the list, but you have got to get the 
governing structure right, and you have to have governing 
structure that also requires high ethical standards. That is 
the key.
    Senator Breaux. I thank both of you.
    The Chairman. Thank you. I understand Senator Campbell has 
one more.
    Senator Campbell. Thank you, Mr. Duberstein, for mentioning 
the word, athletes. We have been sitting here for an hour, and 
we have not mentioned them. You know, that is what it has 
always been about for me, about what is happening to our young 
people that are trying their hearts out to be on that team, and 
not who is taking trips to Europe, or who is getting the best 
of somebody else in the hierarchy or any of that kind of stuff. 
We ought to be focusing on what we are doing for young people.
    Let me ask you just something about the ethics thing. are 
you the only person on the committee who has not turned in a 
disclosure form?
    Mr. Duberstein. I do not know the answer to that.
    Senator Campbell. You are chairman, but you do not know the 
answer to that?
    Mr. Duberstein. No.
    Senator Campbell. When somebody is hired with the U.S. 
Olympic Committee, whose responsibility is it to know the rules 
of behavior? When we get elected, for instance, we get one of 
these, and we are pretty much told what is in it, and it is our 
responsibility to read it and understand it, and if we do not, 
the Ethics Committee, we can call them any time of the day and 
ask them to spell it out for us and, in fact, many of us, 
before we even make a decision on doing something, we run it by 
them first to see if we could be in trouble, since we are not--
a lot of us are not real experts on the subtleties of a book 
that thick.
    Is it the responsibility of the Ethics Committee to school 
the incoming people, or is it the responsibility of the people 
to be aware of any behavior or misconduct that may be spelled 
out in the Ethics Committee rules?
    Mr. Duberstein. It is the responsibility of the Ethics 
Oversight Compliance Officer to administer day-in and day-out 
to the ethics oversight program of the USOC.
    Our job, the way we have interpreted it, is to be available 
to help when there are referrals or allegations made to the 
committee, whether it is about bid city procedures for 2012, or 
vetting the candidates to replace Sandra Baldwin when she 
resigned. That came to the Ethics Oversight Committee, but the 
day-in, day-out administration of the ethics program is the 
responsibility of the Compliance Officer.
    Senator Campbell, if I could take the opportunity to also 
say to you that two members of the Ethics Oversight Committee 
are athlete representatives, and participated fully. They voted 
with everybody else. They have hung in there and continued to 
express their pride that we got things right.
    It happens to matter a lot to me that it is the two athlete 
representatives who really are fighting the fight and saying we 
did the right thing.
    Mr. Marshall. Senator Campbell, if I could add in response, 
with regard to the question of whose responsibility it is to 
make sure the rules are in place and that they are followed, 
you have got the individual who most recently had that position 
coming before you as a witness on the next panel, and I would 
like to suggest a couple of questions.
    In addition to dealing with the specifics of who may or may 
not have submitted disclosure forms, which is an issue I 
believe Mr. Rodgers can address, although he has recently 
resigned from the USOC, I think looking forward it would be 
useful for you to ask him whether, looking forward, the Office 
of Ethics Compliance at the USOC has sufficient resources to 
track down the issues it needs to track down, or track down 
disclosure forms, or develop modifications to our bylaws, 
rules, or training programs.
    Senator Campbell. Thank you.
    The Chairman. Thank you. Thank you, Mr. Duberstein and Mr. 
Marshall.
    Our next panel is Ms. Rachel Godino, chairperson of the 
Athletes' Advisory Council and USOC Executive Committee member, 
Mr. Patrick Rodgers, former Chief Ethics Compliance Officer of 
the United States Olympic Committee, Mr. Lloyd Ward, chief 
executive officer and executive director, United States Olympic 
Committee, and Ms. Marty Mankamyer, who is the president of the 
United States Olympic Committee.
    And as our witnesses are joining us, I would again repeat, 
I will be asking the committee members to subpoena Mr. 
Fielding. I think there are a lot of questions that need to be 
asked of Mr. Fielding, the quality of his report, his failure 
to make recommendations, and I am sorry he has higher 
priorities than appearing here today before this committee, so 
we will have to make sure that he does not have another 
important meeting that would supersede our requesting his 
presence.
    We would like to begin with you, Ms. Godino, and thank you 
for appearing here today, and please proceed.

  STATEMENT OF RACHEL GODINO, CHAIRPERSON, ATHLETES' ADVISORY 
          COUNCIL, AND USOC EXECUTIVE COMMITTEE MEMBER

    Ms. Godino. Thank you, Mr. Chairman, Members of the 
Committee. Thank you for this opportunity to speak to you 
today. My name is Rachel Myer Godino. I am a 1992 Olympian in 
the sport of figure skating and serve as the elected 
chairperson of the United States Olympic Committee Athletes' 
Advisory Council, the USOCAAC. The AAC is composed of Olympic, 
Pan American, and Paralympic athletes elected by their peers to 
represent the interests and protect the rights of America's 
athletes. It is truly an honor to represent and lead such a 
distinguished group.
    I am also here as a member of the USOC Executive Committee. 
Today, I am presenting the views of all five USOC vice 
presidents, and the chair of the National Governing Bodies 
Council, Robert Marbut, who is seated behind me.
    It is unfortunate that I am not here to share with you 
today the stellar performances of America's athletes on the 
field of play, and they have been stellar. Unfortunately, the 
continued organizational challenges that plague the USOC 
threaten to cloud their significant achievements. We should all 
keep in mind that the sports administrators, coaches, and 
especially the athletes are the innocent victims of this 
turmoil.
    I will address first the specifics of the January 13 
Executive Committee meeting and, second, the broader issue of 
how the USOC can better serve America's athletes. On January 
13, the Executive Committee met and considered the Ethics 
Oversight Committee report and supporting materials. The Ethics 
Oversight Committee report, as you know, had three findings, 
and expressed a grave concern.
    It is notable, as Mr. Duberstein and Mr. Marshall noted, 
that all 10 members of the Ethics Oversight Committee 
unanimously approved that report. The Executive Committee took 
action on the entire report, as I believe it was our 
responsibility to do. First, we accepted and approved the 
report, and I would suggest to you that I think, given the 
circumstances, it would have been highly unusual for us to do 
otherwise.
    Second, we provided disciplinary action for the two 
findings regarding Mr. Ward, that he failed to comply with the 
USOC code of ethics. The Compensation Committee will determine 
that penalty.
    Third, we asked the five vice presidents, the chair of the 
NGBC council, and myself to create an action plan to address 
the third finding and the concerns expressed by the Ethics 
Oversight Committee. The entire Executive Committee 
participated in the discussion with the exception of Mr. Ward 
and Ms. Mankamyer, and that motion I just described was passed 
by an 18 to 3 vote, an overwhelming majority.
    The characterizations of the January 13 meeting in the 
media have been less than accurate. While no one expressed the 
view in the meeting that the findings regarding Mr. Ward 
merited termination, because the press reported in advance that 
Mr. Ward's job was in jeopardy, any action less than 
termination was portrayed as inaction. Far from it. The 
referral to the Compensation Committee will lead to a penalty 
for Mr. Ward.
    Furthermore, the Executive Committee had an obligation to 
consider the entire Ethics Oversight Committee report, not just 
the parts that addressed Mr. Ward. I believe that the Executive 
Committee discharged its duty properly on January 13. That 
said, I think the Executive Committee could have provided more 
clarity to the public as to whether Mr. Ward's conduct 
constituted a,`` violation of the code of ethics.''
    While the Ethics Oversight Committee report did not use 
that word, their findings are a literal violation of the USOC 
code of ethics. By accepting and agreeing with the report, some 
Executive Committee members, including myself, believe that we 
were acknowledging a violation by Mr. Ward.
    As the committee undoubtedly knows, I am a member of the 
group of seven officers, which consist of all five USOC vice 
presidents, the chair of the NGB council, and the chair of the 
AAC, myself, that requested Ms. Mankamyer's resignation 
privately on January 12 and publicly on January 21. We 
requested her resignation because of our concerns about her 
leadership and handling of this matter. These concerns caused 
us to lose confidence in her ability to lead us. We do not take 
this request lightly. Indeed, it has been extremely difficult, 
for me personally, to request the resignation of our president, 
as I consider Ms. Mankamyer a friend.
    I would now like to address the broader issue, and in terms 
of the future of the Olympic movement in the United States, 
perhaps the most important issue of improving the governance 
and structure of the USOC. Certainly, it is true that 
personalities often play a role in conflict, and have 
undoubtedly played a role in this most recent series of events, 
but the recurring nature of the organizational challenges we 
have faced, as has been suggested today, suggest that we also 
have a fundamental structural problem. To date, we have been 
unable to rectify these problems.
    In the hope of implementing necessary changes, I believe an 
Olympic Review Commission could help find possible solutions. 
If created, I suggest that the commission's objective would be 
to cause changes to our governance structure that apparently 
cannot occur through our normal processes. To limit the 
continued turmoil and to return your attention and the 
attention of the American public to the athletes, and to the 
field of play, as swiftly as possible, I request that the 
commission, if created, conduct its work as swiftly as 
possible.
    I would like to take the opportunity to day to request that 
the commission, or whatever mechanism is put in place to move 
us forward, consider the following concepts in their 
deliberations. First, I believe we need a streamlined form of 
governance, as suggested publicly by Senators Stevens and 
Campbell last week, and by many of you here today. The exact 
nature of that streamlining is to be determined, but must 
address the size, roles, and responsibilities of the board of 
directors, the Executive Committee, and the officers.
    Second, the roles and responsibilities of the board vis a 
vis the professional staff must be clearly defined and 
practiced. Strategies should be part of the recommendations.
    Third, we must raise the level of professionalism among our 
volunteer leadership and, indeed, across the board. I suggest 
consideration of adoption of Sarbanes-Oxley provisions as may 
be applicable to the USOC. Implementation of annual board and 
Executive Committee training and performance reviews would 
undoubtedly precipitate additional improvements.
    Overall, we should implement best practices, as recommended 
by recognized independent organizations involved in fostering 
sound corporate governance.
    Ultimately, everyone who is a part of USOC should be held 
accountable to all of you, the sponsors, the American public, 
and ultimately to the athletes that we serve.
    Given the opportunity, and a set of circumstances conducive 
to change such as those that we are facing today, we can fix 
these problems. We must fix them for America's athletes. 
Without our athletes, the U.S. Olympic Committee has no 
purpose, no reason to exist. We have just 184 days until the 
2003 Pan American Games, and just 561 days until the 2004 
Athens Olympic and Paralympic Games. In fact, last week, the 
first two members of the 2004 Olympic team were selected. They 
are synchronized swimmers Alison Bartosik and Anna Koslova.
    Despite the major distraction that the USOC is experiencing 
as an organization, we must remember that the athletes of the 
United States are hard at work on the field, in the gym, in the 
pool, or on the ice and snow, training, competing, and pushing 
themselves to limits that most people cannot fathom. We are 
proud of our athletes every single day of the year, and every 
year of the quadrennium, for their perseverance, ambition, 
discipline, and passion for sport. I hope that we can make the 
appropriate changes to this organization so that our athletes 
are as proud of the USOC as we are proud of them.
    Thank you for your time.
    [The prepared statement of Ms. Godino follows:]

 Prepared Statement of Rachel Godino, Chairperson, Athletes' Advisory 
              Council, and USOC Executive Committee Member
    Senator McCain and Members of the Senate Commerce Committee, thank 
you for the opportunity to speak to you today about the Olympic 
Movement in the United States. My name is Rachel Mayer Godino. I am a 
1992 Olympian in the sport of Figure Skating, and serve as the elected 
chairperson of the United States Olympic Committee Athletes' Advisory 
Council (USOC AAC). The AAC is composed of Olympic, Pan American, and 
Paralympic athletes elected by their peers to represent the interests, 
and protect the rights of America's athletes. It is truly an honor to 
represent and lead such a distinguished group. I am also here as a 
member of the USOC Executive Committee.
    Today, I am presenting the views of all five USOC Vice Presidents 
and the Chair of the NGB Council, Robert Marbut. Due to the extremely 
short timeframe I had to prepare for this hearing, the full AAC has not 
yet had an opportunity to meet and take a formal position on these 
matters. Moreover, I have not had an opportunity to present my views 
comprehensively in this statement, and I may wish to supplement this 
statement following the hearing.
    It is unfortunate that I am not here today to share with you the 
stellar performances of America's athletes on the field of play. Just 
three days ago, Daron Ralves won the Hahnenkamm--the ``Super Bowl'' of 
Skiing, and Bode Miller is vying for the top spot in World Cup 
rankings. Just last weekend Michelle Kwan won her seventh National 
Championship, with Sarah Hughes the 2002 Olympic gold medalist close 
behind. This summer, our women's softball and basketball teams won 
their respective World Championships, and we dominated the Pan Pacific 
Championships in swimming. Unfortunately, the continued organizational 
challenges that plague the USOC threaten to cloud these significant 
achievements by athletes. We should all keep in mind that the sports 
administrators, coaches, and most importantly the athletes, are the 
innocent victims of this turmoil.
    As requested, I will first address the specifics of the January 13, 
2003 Executive Committee meeting. Second, I will address the broader 
issue of how the USOC can improve and better serve America's athletes.
    On January 13, 2003, the USOC's Executive Committee met to consider 
the Ethics Oversight Committee report of January 10, 2003 and 
supporting materials. By way of background, Kenneth Duberstein chairs 
the Ethics Oversight Committee, and Thurgood Marshall, Jr. and Thomas 
McLarty serve as its Vice Chairs. Other than two athlete members and a 
representative from the National Governing Bodies Council, those that 
serve on the Ethics Oversight Committee are independent--that is to say 
that they are not otherwise involved in the affairs of the USOC. The 
Ethics Oversight Committee hired Fred Fielding as independent counsel 
to investigate the matters presented to them by Pat Rodgers in the fall 
of 2002. The Ethics Oversight Committee report had three findings and 
expressed one grave concern (as set forth below). It is notable that 
all ten members of the Ethics Oversight Committee unanimously approved 
the final report.
    At the January 13 meeting, the Executive Committee reviewed and 
considered the Ethics Oversight Committee report, Mr. Fielding's 
interview memorandum, and supporting materials. We discussed a proposed 
motion and the facts and circumstances. Every member of the Executive 
Committee, other than Ms. Manakamyer and Mr. Ward spoke and engaged in 
the discussion. The meeting lasted approximately three hours. Following 
discussion, the Executive Committee passed a three-part motion 
(described below) by an 18-3 vote.
    First, the Executive Committee accepted and approved the report of 
the Ethics Oversight Committee in full, thereby accepting and approving 
the findings and concerns delineated in the report. I suggest that 
given the series of events leading to that point, it would have been 
highly unusual for us to act otherwise.
    By accepting and approving the report, the Executive Committee 
agreed with the characterization that Mr. Ward ``created the appearance 
of a conflict of interest'', and ``failed to make a written 
disclosure''. Therefore, the second part of the Executive Committee 
motion provided for disciplinary action for the two findings in the 
report that Mr. Ward failed to comply with the USOC Code of Ethics. 
While many press reports have represented that Mr. Ward was ``cleared 
of wrongdoing'' in the report and/or by the Executive Committee, it is 
simply not true. Disciplinary action was taken; Mr. Ward was not 
cleared of wrongdoing. The Compensation Committee was directed to 
handle disciplinary action for Mr. Ward through his performance review. 
The Compensation Committee is charged with determining the penalty, and 
will do so. Mr. Ward will suffer a penalty as a result of this action.
    Third, the Officers, the Chair of the National Governing Bodies 
Council, and I were charged with creating an action plan for 
presentation and approval at the upcoming February 8-9 Executive 
Committee meeting to address the third finding and the concern 
expressed in the Ethics Oversight Committee report. The finding 
addressed ``a serious lack of sensitivity in the enforcement of the 
USOC Ethics Code'', and grave concern was expressed about attempts to 
``abuse its process and use that process for other purposes.'' 
Furthermore, the Executive Committee was in agreement that the manner 
in which the documents relevant to this matter had been selectively 
leaked to the media was improper and raised serious questions about the 
conduct of the organization. The development of the plan to address all 
of the above is underway.
    The characterizations of the January 13, 2003 Executive Committee 
meeting in the media have been less than fully accurate. While no one 
expressed the view in the meeting that the findings regarding Mr. Ward 
merited termination, because the press reported in advance that Mr. 
Ward's job was in jeopardy, any action less than termination was 
portrayed as inaction. Far from inaction, the Executive Committee 
referral of the disciplinary action through the Compensation Committee 
will lead to a penalty for Mr. Ward. Furthermore, the Executive 
Committee had an obligation to consider the entire Ethics Oversight 
Committee report, not just those parts that addressed Mr. Ward. Lastly, 
it is important to note again that the three-part motion described 
above was passed by a vote of 18-3--an overwhelming majority of the 
Executive Committee.
    I believe that the Executive Committee discharged its duty 
appropriately on January 13, 2003. That said, I believe that the 
Executive Committee could have provided more clarity to the public as 
to whether Mr. Ward's conduct constituted a violation of the Code of 
Ethics. While the Ethics Oversight Committee report did not use the 
word ``violation'', their findings are a literal violation of the USOC 
Code of Ethics. By accepting and agreeing with the report, some 
Executive Committee members believed that we were acknowledging a 
violation by Mr. Ward. Others believe that we should have addressed the 
issue more directly. After consideration of all the factors, it is my 
opinion, and the opinion of the five Vice Presidents, the Chair of the 
NGB Council, and a number of Executive Committee, members, that Mr. 
Ward did violate the Code of Ethics, and that the recommended 
disciplinary action through the Compensation Committee was the 
appropriate consequence for that violation.
    As the Committee undoubtedly knows, I am a member of the group of 
seven ``Officers'' (all five USOC Vice Presidents, the Chair of the NGB 
Council, and the Chair of the AAC) that requested Ms. Mankamyer's 
resignation privately on January 12, 2003 (prior to the Executive 
Committee meeting) and publicly on January 21, 2003. This group of 
``Officers'' crosses some of the historic ``continental divides'' in 
the USOC such as those between the NGB Council and the AAC. After a 
discussion with Ms. Mankamyer on the evening of January 12, we the 
`'Officers'' concluded that she used her position and her associated 
control over calling of Executive Committee meetings, setting of 
Executive Committee agendas, and identifying materials to be 
disseminated to the members of the Executive Committee, not to conduct 
a fair and reasonable review of the conduct of Mr.Ward. To be 
absolutely clear, we requested Ms. Mankamyer's resignation not because 
of any stand she has taken on ethical matters or related to Mr. Ward's 
conduct. We requested her resignation because of our concerns about her 
leadership and handling of this matter. These concerns caused us, the 
``Officers'', to lose confidence in her ability to lead us. Coupled 
with the Ethics Oversight Committee report's ``grave concerns'' which 
we took to be regarding Ms. Mankamyer's involvement in the 
investigation, we all believed that it was in the best interest of the 
USOC, and in the best interest of Ms. Mankamyer that she resign. We do 
not take this request lightly. Indeed, it has been extremely difficult 
for me personally to request the resignation of our President, as I 
consider Ms. Mankamyer a friend. I will note again that this request 
came from the ``Officers'', not the Executive Committee or the Board of 
Directors.
    I would now like to address the broader issue, and in terms of the 
future of the Olympic Movement in the United States, perhaps the more 
important issue, of improving the structure and governance of the USOC. 
As you may know, the USOC has commissioned and undergone numerous 
studies over the last decade to analyze and improve our governance 
structure. \1\ These studies have a common theme--the inherent 
challenges in the structural relationship between the volunteer 
leadership and the professional staff. Specifically, the divisions of 
power, and shared responsibilities between the CEO and President have 
been considered. Recent events have re-emphasized the points raised in 
these studies. Certainly it is true that personalities often play a 
role in conflict, and they have undoubtedly played a role in this most 
recent series of events. But the recurring nature of the organizational 
challenges we have faced suggests that we also have a fundamental 
structural problem. To date, the USOC has demonstrated a lack of 
political will to implement structural changes to rectify these 
problems.
---------------------------------------------------------------------------
    \1\ 1999 McKinsey Report, 1998 Amendment to the Amateur Sports Act, 
1996 Marketing Associates International (MAI) Study, 1989 Olympic 
Overview Commission (``Steinbrenner Commission''), 1985 USOC Long Range 
Planning Commission (Chaired by Jay Flood), 1978 Amateur Sports Act, 
1977 Presidential Commission on Olympic Sport.
---------------------------------------------------------------------------
    In the hope of finally implementing necessary changes, I believe 
that an Olympic Review Commission could help find positive solutions. 
If created, I suggest that the Commission's objective would be to cause 
changes to our governance structure that apparently cannot occur 
through our normal processes.
    To limit the continued turmoil, and to return your attention, and 
the attention of the American public to the athletes and the field of 
play as swiftly as possible, I request that the Commission present an 
interim report to you, the Commerce Committee as soon as possible--
ideally before the April 12-13 USOC Board of Directors meeting. 
Furthermore, I request that the Commission provide its final report in 
time for legislation to be considered, and if appropriate adopted, 
before the end of this year.
    I would like to take the opportunity today to request that the 
Commission (or whatever mechanism is put in place to move us forward) 
consider the following concepts in their deliberations.
    First, I believe that we need a streamlined form of governance, as 
suggested publicly by Senators Stevens and Campbell last week. The 
exact nature of that streamlining is to be determined, but must address 
the size, roles and responsibilities of the Board of Directors, 
Executive Committee, and Officers.
    Second, the roles and responsibilities of the Board vis a vis the 
professional staff must be clearly defined and practiced. Improved 
clarity alone will not solve the problem. We, as volunteers and staff 
must actually act in accordance with the defined roles and 
responsibilities. As you may know, in 2000 we changed the USOC 
Constitution and Bylaws and transferred many responsibilities from the 
volunteers to the professional staff as a result of the 1999 McKinsey & 
Co. study. However, I believe that we failed to implement critical 
changes to the culture and practice to complete the transformation 
envisioned. Strategies to ensure that the roles and responsibilities of 
volunteers and staff are both defined and practiced should be part of 
any recommendations for improvement.
    Third, we must raise the level of professionalism among our 
volunteer leadership, and indeed across the board. I suggest careful 
consideration of adoption of Sarbanes-Oxley provisions as may be 
applicable to a nonprofit like the USOC. Furthermore, implementation of 
annual Board and Executive Committee training and performance reviews 
would undoubtedly precipitate improvements. Overall, we should 
implement ``best practices'' as recommended by recognized independent 
organizations involved in fostering sound corporate governance. To 
ensure that the Board of Directors has a level of sophistication and 
professionalism worthy of our esteemed athletes, perhaps the Board 
should include Presidential, or other governmental appointees, or at 
least additional members from the public sector with governance 
experience. Ultimately, everyone who is a part of the USOC should be 
held accountable to all of you, the sponsors, the American public, and 
ultimately to the athletes that we serve.
    Given the opportunity, and a set of circumstances conducive to 
change, such as those we face today, we can fix these problems. We must 
fix them for America's athletes. Without our athletes, the U.S. Olympic 
Committee has no purpose; no reason to exist. We have just 184 days 
until the 2003 Pan American Games and just 561 days until the 2004 
Athens Olympic and Paralympic Games. In fact, last week, the first two 
members of the 2004 Olympic Team were selected. They are synchronized 
swimmers, Allison Bartosik and Anna Koslova.
    Despite the major distraction that the USOC is experiencing as an 
organization, we must remember that the athletes of the United States 
are hard at work on the field, in the gym, in the pool, or on the ice 
and snow training, competing, and pushing themselves to limits most 
people can't fathom. We are proud of our athletes every single day of 
the year, and every year of the quadrennium, for their perseverance, 
ambition, discipline, and passion for sport. I hope that we can make 
the appropriate changes as an organization so that our athletes are as 
proud of the USOC, as we are proud of them.
    Thank you for your time and attention.

    The Chairman. Thank you very much.
    Mr. Rodgers, welcome.

STATEMENT OF PATRICK J. RODGERS, FORMER USOC ETHICS COMPLIANCE 
                            OFFICER

    Mr. Rodgers. Thank you, Senator. I am here today to speak 
to alleged violations of the United States Olympics Committee 
code by its chief executive officer, Lloyd Ward. I can only 
presume that the Executive Committee read a different set of 
documents than I read.
    It is interesting to note the evolution of no wrongdoing 
and exoneration to that of now a technical violation. However, 
it was and remains clear to me that Lloyd Ward abused his 
position as chief executive officer of the United States 
Olympic Committee by directing an employee to help his 
brother's company attempt to secure a multimillion contract 
with the organizers of the 2003 Pan American Games in the 
Dominican Republic.
    His actions are particularly troubling because he bypassed 
the USOC compliance and ethics process by not consulting with 
me as chief compliance officer or the general counsel on the 
propriety of his decisions. He constantly chose to use USOC 
assets in the form of asking a subordinate employee to assist 
his brother and friend, and by do doing improperly engaged the 
reputation of the U.S. Olympic Committee to facilitate contacts 
and meetings with the 2003 Pan American Games Organizing 
Committee in Santa Domingo. He did this for the express purpose 
of benefiting his brother and family friend. He failed to 
disclose his conflict of interest on his annual disclosure 
statement dated July 1, 2002, and again in November of 2002, 
when he failed to fully disclose the extent of his knowledge 
and involvement when interviewed by outside counsel. These are 
the central issues.
    Mr. Ward would have us believe that certain individuals' 
political motivations that are Machiavellian plots are the 
greater sins. However, these constructive assertions are simply 
not compatible with the facts. For Mr. Ward to assert his 
actions were clearly transparent because they fully delegated 
the matter is pure folly. By referring the matter to his 
immediate subordinate, the message was loud and clear. The 
employee had no independent knowledge or awareness of even the 
existence of Energy Management Technologies, and therefore 
would not have made the business introduction but for Lloyd 
Ward's direction.
    If Lloyd Ward really was concerned about transparency, he 
should have stepped down by referring the request from his 
brother's company to the chief compliance officer. The charge 
that I, as chief compliance officer, should have counseled 
Lloyd Ward about his unethical behavior prior to having any 
knowledge of it ignores the fundamental facts and infers a 
certain failure on the part of Lloyd Ward to understand and 
comply with the very code that he and 125 USOC board members 
endorsed and adopted this past April at the board of directors 
meeting in Boston.
    However, separate and apart from this matter, and in line 
with my responsibilities as chief compliance officer, I did 
provide Lloyd Ward with one-on-one ethics counseling shortly 
after his hire, and even discussed a parallel case involving a 
predecessor CEO's conflicts over a family member's business 
interests.
    In addition, I conducted training for senior staff, 
including Lloyd Ward, at a senior staff retreat in Alabama on 
August 17 of last year, at which I presented a case study 
concerning a potential finder's fee for facilitating a business 
arrangement, and then discussed misuse of USOC property, misuse 
of USOC name and marks, endorsements, proprietary information, 
and conflicts of interest related to misuse of position for 
personal gain and favored treatment of family and friends.
    In this case, the facts, if anybody is willing to look at 
them, clearly supports that it was not until October 7, 2002 
that I became aware of Lloyd Ward's initiative and involvement 
in facilitating potential financial gain for his brother and 
friend, and initiated an ethics review.
    It is my conclusion that Lloyd Ward misused his position as 
chief executive officer of the United States Olympic Committee 
to facilitate potential financial gain for his brother and/or 
his friend, and in the process violated four provisions--not 
one, four provisions of the USOC code of ethics.
    Specifically, he violated the code with the requirement to 
protect information that belongs to the United States Olympic 
Committee or donors, sponsors, suppliers, and fellow workers. 
Mr. Ward was aware of or should have known that Energy 
Management Technologies' presentation contained proprietary 
Olympic photographs of athletes engaged in competition at the 
Sydney games, which may not be used for commercial purposes.
    Because of Energy Management Technologies' business plan, 
the original information that I did not call for marketing 
microturbines to the Pan American Games or anybody, for that 
matter, in the Olympic family. The note given to Hernando 
Madronero, which I received in October, was the first indicator 
that this was, at least in part, an initiative undertaken as a 
result of information provided by Lloyd Ward to Energy 
Management Technologies which he acquired as a direct result of 
his position with the United States Olympic Committee.
    He violated the requirement to avoid conflicts of interest, 
real and perceived. He failed to disclose the business 
relationship with his brother, family friend, and another 
member of the Olympic family, specifically his friend and 
brother's relationship in Santa Domingo.
    He failed to meet the requirement of never using USOC 
assets or information for personal gain. Lloyd Ward used USOC 
staff and the name of the United States Olympic Committee to 
facilitate a potential business relationship for his brother 
and friend with another national organizing committee which 
could have resulted in substantial financial gain for his 
brother and/or family friend. It does not make any difference 
whether or not any financial gain in fact accrued. The attempt 
was there.
    The last point he violated, and this is the one finding, 
apparently, that somebody is giving some recognition to, to 
recognize even the appearance of misconduct or impropriety can 
be very damaging to the reputation of the United States Olympic 
Committee and act accordingly. Lloyd Ward's knowledge, 
associations, and assistance to his brother and family friend 
in their attempt to engage in a business transaction with 
another member of the Olympic family presented a clear 
perception of a conflict of interest.
    In conclusion, this is not just about Lloyd Ward and the 
failure to enforce the code of ethics. This is about failed 
self-governance and leadership which chose to look the other 
way and, in so doing, as far as I am concerned, placed the very 
Olympic values, spirit, and ideals that they were entrusted to 
protect at risk.
    And I have one final statement as it relates to Mr. 
Duberstein about whether or not I could have made this matter 
go away. I absolutely could have made the matter go away by 
simply agreeing with Mr. Duberstein's contention from the very 
beginning that this was, ``a lot about nothing.''
    That is the end of my statement.
    [The prepared statement of Mr. Rodgers follows:]

Prepared Statement of Patrick J. Rodgers, Former USOC Ethics Compliance 
                                Officer
    My recollection of the following chronology, facts, and personal 
interactions best describe my knowledge of alleged ethics violations by 
United States Olympic Committee Chief Executive Officer, Lloyd Ward, 
and the controversy surrounding them.
    On or about April 4, 2002, following a meeting in the office of 
Hernando Madronero, the then Managing Director of International 
Relations, he shared with me a letter that he said was given to him by 
Lloyd Ward, the Chief Executive Officer of the United States Olympic 
Committee. The letter was from a company called ``Energy Management 
Technologies,'' a division of WestBank Holdings LLC and was signed by 
Mr. Lorenzo Williams and Mr. Rubert Ward.
    Madronero said that he thought it strange that Mr. Ward would show 
him the letter and asked me to look at it. The letter, dated February 
19, 2002, thanked Mr. Ward for taking the time to review the attached 
business plan and noted that changes had been made to reflect Mr. 
Ward's suggestions from the initial plan. The letter contained a 
request for Mr. Ward's financial assistance in the form of either a 
loan or equity investment in the amount of $150,000 for the purchase of 
2-3 microturbines and funding to maintain its operations in the 
Dominican Republic.
    I reviewed the business plan and noted that the plan called for 
marketing microturbines to educational institutions, resource recovery 
landfills, medical facilities, American ex-pats, law enforcement 
facilities and agriculture. The plan also contained a 5-phase strategic 
plan encompassing the Dominican Republic, Panama and Jamaica.
    Nothing in the cover letter or business plan gave any indication 
that the business ventures proposed were in any way related to the 
United States Olympic Committee, Olympic family, sponsors, or the 2003 
Pan American Games.
    I then asked Mr. Madronero if Mr. Ward asked him to do anything 
related to the letter or business plan. Mr. Madronero's response was 
that he had not been asked by Mr. Ward to do anything related to the 
request or business plan. He added that he was asked by Lloyd Ward to 
keep him informed on developments in the Dominican Republic.
    At that time, although I did not see any ethics issues associated 
with the letter, business plan, or Mr. Ward's request that Madronero 
keep him informed of developments in the Dominican Republic, I sought a 
second opinion and showed the letter and business plan to the USOC 
General Counsel, Mr. Jeff Benz.
    We jointly concluded that there was no ethics matter associated 
with the request. Mr. Benz and I both decided that it would be 
important to ensure that if any contractual business or sponsor 
relationship contained the name of this company, ``Energy Management 
Technologies,'' we would want to have an opportunity to review it to 
ensure that there were not any potential conflicts of interest. In that 
regard, Mr. Benz sent an email to his staff at the end of our 
discussion.
    I also informed the Chairman of the USOC Ethics Oversight 
Committee, Ken Duberstein, of the incident during a dinner meeting with 
him in at the Chicago Airport Hilton on the eve of the USOC Executive 
Committee Presidential election meeting. The information provided to 
Mr. Duberstein was routine and in line with keeping him informed of 
what I was doing. I did not, at that time, have any additional 
information that would cause me to believe there had been any breach of 
the USOC Code of Ethics by Mr. Ward.
    It was not until October 7, 2002 at a pre-arranged lunch with Mr. 
Madronero and another USOC employee that I learned from Mr. Madronero 
that he had helped Lloyd Ward's brother. During the lunch discussion, 
Mr. Madronero complained that he felt humiliated by being escorted off 
the USOC complex without any opportunity to say goodbye to his staff or 
return to his office to retrieve his personal effects. He also stated 
that he did not believe that Mr. Ward liked Hispanics and was offended 
by his treatment after all he had done to help Mr. Ward's brother.
    At that point I said ``What do you mean, helped his brother''? 
Before he could answer, I reminded Mr. Madronero of my earlier 
conversation with him wherein he told me he had not been asked to take 
any action in response to Mr. Ward showing him the letter. Mr. 
Madronero then said that it was no big deal and he had no interest in 
discussing the matter further, as he simply wanted to focus on getting 
on with his life and didn't want to jeopardize working out an agreeable 
severance with the USOC.
    I told Mr. Madronero that he had an obligation to report to me what 
transpired and any report that he gave me would not be subject to any 
communication prohibitions contained in a severance agreement. I 
emphasized that I wanted to know exactly what he did to help Lloyd's 
brother, why he did it and if he had any supporting documentation that 
could verify it. Madronero then alleged that Lloyd asked him to call 
his brother and see if he could be of assistance in facilitating a 
meeting with the Pan American Games organizing committee. Madronero 
said that he did make some calls on behalf of Rubert Ward to Dr. 
Puello, the President of the Dominican Republic Olympic Committee and 
he believed that he had a couple of documents at his apartment, as well 
as a possible voice mail message left on his office phone from Lloyd 
Ward's brother, Rubert Ward. I asked him if there were any other calls 
or communications. He said that there were several calls but he only 
had the one voice mail.
    I followed Mr. Madronero home, retrieved a copy of the February 19, 
2002 letter, a handwritten note from Lloyd Ward to Mr. Madronero 
stating ``An interesting proposal that could be beneficial for the 2003 
Pan Am Games. Let's discuss. Come see me this week.''
    Additionally, Madronero gave me a small undated handwritten note 
containing telephone numbers for Rubert Ward, allegedly given to 
Madronero by Lloyd Ward. I then asked Madronero to call his voice mail 
while we were at his apartment and transfer the call allegedly from 
Rubert Ward to my office phone.
    On October 8th, I listened to and transcribed the voice mail from 
Rubert Ward, who thanked Madronero for his assistance and informed him 
that a meeting was scheduled with Dr. Puello on August 28th of 2002 in 
Santo Domingo to discuss the proposed business venture.
    On or about October 11th, I sent a fax to Kenneth Duberstein, 
informing him of my discussion with Madronero and the documents 
provided by Madronero. I made a recommendation in that memo that ``The 
Ethics Oversight Committee retain outside counsel to conduct the 
necessary interviews to determine the facts and circumstances 
surrounding the allegation and provide a report of findings to the 
Chair.
    I spoke with Mr. Duberstein by phone on the 15th of October. During 
that conversation his initial position was that this was not an ethics 
matter but a management issue. I disagreed and following a discussion 
concerning the role and responsibilities of the Ethics Oversight 
Committee, my responsibilities and the President's responsibilities, he 
agreed to schedule a meeting of the Committee and asked me to send him 
documentation concerning my responsibilities, as well as that of the 
Oversight Committee and the USOC President. He also asked that I 
prepare a proposed course of action should the Oversight Committee 
decide to take up this matter.
    On the 16th of October, 2002, I prepared and sent a memo to Mr. 
Duberstein containing the responsibilities of the Oversight Committee, 
my responsibilities as Chief Compliance Officer and the 
responsibilities of the USOC President. All of the information was 
extracted from the USOC Constitution, Bylaws, and Ethics and Compliance 
Policy III-1. Additionally, I proposed a course of action for 
proceeding if the Ethics Oversight Committee determined that this was 
properly a matter for committee review and investigation.
    An Ethics Committee teleconference meeting was held at 12 noon EST 
on the 24th of October, 2002 to take up consideration of this matter. 
Documentation supporting the allegation was sent separately to each 
Ethics Committee member in advance of the call. As documented in 
meeting minutes, the Ethics Committee was informed of the allegation 
and my proposed course of action. The committee unanimously agreed to 
the following steps:

        1.  Retain outside counsel to determine the financial interests 
        of Lloyd Ward in his brother's company and to determine whether 
        or not there were other related communications involving Lloyd 
        Ward, Hernando Madronero, Rubert Ward and other staff. Counsel 
        was to interview Hernando Madronero and then report back the 
        results of that interview to the full committee before 
        proceeding further.

        2. The Chair of the Ethics Oversight Committee was to:

          A.  Inform Lloyd Ward of the allegations and the information 
        received by the committee, to include all documents and 
        transcripts.

          B.  Extend the committee's invitation to Mr. Ward to submit 
        input or documentation for consideration by the committee.

          C.  Inform Mr. Ward that the results of the committee's 
        investigation would either be closed, if unsubstantiated, or 
        reported to the Executive Committee in accordance with USOC 
        Bylaws.

    At the next regularly scheduled Ethics Oversight Committee meeting 
held in Colorado Springs on November 2, 2002, the minutes taken by me 
during the October 24th teleconference were reviewed and approved by 
the committee and are a matter of record.
    During the period between October 24th and the next teleconference 
meeting, on or about November 22nd, I contacted outside counsel, Fred 
Fielding, on several occasions to determine the status of his 
interviews. I was concerned that a matter of this potential 
significance to both Mr. Ward and the USOC was taking so long given 
that Mr. Fielding's charge by the committee was limited and his report 
was necessary to determining whether or not to proceed further. His 
response was always the same. He was working on it and would report to 
the committee chair when it was completed. During one of those calls he 
asked me if I would mind giving him my statement because there were 
some discrepancies in the recollection of others that he talked with 
and the initial information that I gave him. I agreed, gave him the 
information and then again pressed him to complete his work.
    Eventually, a committee conference call was scheduled for November 
22nd wherein Fred Fielding, the retained outside counsel, was to report 
the results of his interviews to the full committee. During a pre-
conference committee call between Ken Duberstein, Fred Fielding, and me 
which was scheduled to enable Mr. Duberstein and me to hear the results 
of Mr. Fielding's interviews immediately prior to the full committee 
conference call, Mr. Fielding gave his verbal report. Upon the 
conclusion of that report Mr. Duberstein declared that this was ``a lot 
about nothing.'' I said that it was a clear ethics violation. After 
several minutes of discussion with no agreement by me that this was not 
a clear ethics violation, the 3 of us agreed that a written report was 
necessary before further discussion of the matter. When the full ethics 
committee conference call began, Mr. Duberstein announced the need for 
a written report before discussions of this matter could continue. The 
committee agreed and set a time table to receive the report within 10 
days. Mr. Fielding agreed to get the report to the committee and I 
committed to schedule another full committee meeting as soon as 
possible following receipt of the report by committee members.
    Immediately following the call, Mr. Duberstein called me back and 
told me that this was a management issue and I needed to find a way to 
make this go away for my own good. I asked him if he was trying to 
infer that I should be worried about my job. I told him that he should 
not have such worry because I believed this was a clear ethics 
violation and would leave my job before I would ever entertain finding 
a way to make this go away. Mr. Duberstein then said that he was 
concerned that the Ethics Committee was being used for political 
purposes and he would not allow the Ethics Committee to be used for 
that purpose. I said that political issues should be considered as 
management issues but this was clearly not a political issue and would 
not change my position that I believed it to be a clear violation of 
the USOC Ethics Code. He again said that this was a lot about politics 
and I should think overnight about what he told me and call him back 
the next day.
    I called him the next work day, I believe it was November 25th, and 
reiterated my position. It was at that time that Mr. Duberstein asked 
me to recuse myself from Ethics Committee deliberations on this matter 
because he believed that I did not like Lloyd Ward and he did not want 
any perceptions of conflicts of interest to be part of the Ethics 
Committee deliberations. I stated that I had no personal issue with 
Lloyd but did, of course, not like what I considered his violations of 
the USOC Ethics Code. I then agreed to recuse myself from further 
Ethics Committee deliberations and meetings, provided I was kept 
informed and that I would have an opportunity to review the committee's 
report and provide relevant facts to be considered by the committee. He 
agreed.
    Subsequent to that date, I discovered additional documents which 
included:

        1.  A July 8th presentation cover letter to Lloyd Ward thanking 
        him for taking the time to review and critique Energy 
        Management Technologies planned presentation to the 2003 Pan 
        American Games.

        2.  A copy of a 40-page presentation containing an organization 
        chart listing Rubert Ward as President of Energy Management 
        Technologies and what I believed to be proprietary photographs 
        of athletes who competed in the Olympic Games in Sydney.

        3.  A fax cover sheet, dated September 10th and a, fax letter 
        addressed to Dr. Puello, from Lorenzo Williams. CEO of Energy 
        Management Technologies regarding a pricing proposal, dated 
        September 8th.

    I sent those documents to all committee members in a memo prior to 
their next meeting, which was scheduled to be held on December 19th but 
subsequently changed to December 23rd. I also sent my conclusions to 
Mr. Duberstein in advance of the scheduled call.
    In summary, it was and is my conclusion based upon a review of all 
known documentation that Lloyd Ward misused his position as Chief 
Executive Officer of the United States Olympic Committee to facilitate 
potential financial gain for his brother and/or his friend, and in the 
process violated 4 provisions of the USOC Code of Ethics. Specifically 
he violated the following code requirements:

      CODE REQUIREMENT: Protect information that belongs to the USOC, 
our donors, sponsors, suppliers and fellow workers.

  <bullet> Mr. Ward was aware of, or should have been aware that the 
        ``Energy Management Technologies'' presentation contained 
        proprietary Olympic photographs of athletes engaged in 
        competition at the Sydney Games, which may not be used for 
        commercial purposes.

  <bullet> Because the ``Energy Management Technologies'' business plan 
        did not call for marketing microturbines to the Pan American 
        Games. The note given to Hernando Madronero clearly indicates 
        that this was, at least in part, an initiative undertaken as a 
        result of information provided by Lloyd Ward to ``Energy 
        Management Technologies'' which he acquired as a direct result 
        of his position with the USOC.

      CODE REQUIREMENT: Avoid conflicts of interest, both real and 
perceived.

  <bullet> Lloyd Ward failed to disclose the business relationship with 
        his brother, family friend, and another member of the Olympic 
        family.

      CODE REQUIREMENT: Never use USOC assets or information for 
personal gain.

  <bullet> Lloyd Ward used USOC staff and the name of the USOC to 
        facilitate a potential business relationship for his brother 
        and friend with another National Organizing Committee which 
        could have resulted in substantial financial gain for his 
        brother and/or family friend.

      CODE REQUIREMENT: Recognize that even the appearance of 
misconduct or impropriety can be very damaging to the reputation of the 
USOC and act accordingly.

  <bullet> Lloyd Ward's knowledge, associations, and assistance to his 
        brother and family friend in their attempt to engage in a 
        business transaction with a member of the Olympic family 
        presented the clear perception of a conflict of interest.

    The Chairman. Thank you very much, Mr. Rodgers.
    Mr. Ward, welcome.

STATEMENT OF LLOYD WARD, CHIEF EXECUTIVE OFFICER AND EXECUTIVE 
                    DIRECTOR, UNITED STATES 
                       OLYMPIC COMMITTEE

    Mr. Ward. Mr. Chairman, distinguished Members of the 
Senate, I am here today to share with you some of my thoughts 
on the state of affairs in the USOC, obviously address the 
ethics issue and controversy and, very importantly, I would 
like to answer your questions as you see fit.
    First, let me address the ethics controversy and, as I 
address it, let me apologize to the athletes of America and to 
you that commissioned us. The fact that we are having this 
conversation and not a conversation on athletes and their 
performance is truly sad. But I will also tell you that in my 
contact with sponsors, my contact with friends and families of 
the Olympic movement since this controversy began, it has been 
clear to me that they understand the difference between 
athletes on the field of competition, between sweatsuits and 
performance of our grand athletes and that of blue suits and 
bureaucrats that support them.
    We need to address the blue suits and the bureaucracy, and 
I will give you my thoughts on that as well.
    First, the ethics issue. It is amazing to me that we sit 
here today focused on this issue. It is important that you 
understand the genesis of this issue. The genesis was in an 
idle conversation two months after I joined the USOC as CEO. In 
a casual conversation over a cocktail one evening, Mr. 
Madronero mentioned to my wife and I that the Pan American 
Games were going very slowly in preparation, and that they were 
having a significant problem with electricity and power to 
support the games. In fact, he indicated that it would be very 
unpleasant for our athletes to be in Santa Domingo with the 
weather conditions and the like. Not only would they not be 
able to provide air conditioning, but they would not have the 
electricity to power the fans.
    I am a CEO. I have honed my skills to solve problems. As I 
listened to this, my wife made the comment, ``isn't your 
brother doing something in that part of the world?'' Mr. 
Madronero and I talked about that momentarily, and I said, 
``Hernando, remind me to followup on this with you when we get 
back to the office.'' Hernando and I both thought that this 
might be something that would be useful to pursue.
    When we got back to the office, I made a very simple 
request of Hernando; ``Would you please followup on it and 
handle it as you see fit--I want to be totally hands off and 
not involved.''
    Later, I received a business proposal which I forwarded to 
Hernando with a cover note and a handwritten note on it that 
said, ``This is interesting and may help us with the Pan 
American Games. Please come to discuss.'' That was in April.
    In July, a proposal arrived for a presentation that was 
going to occur in Santa Domingo. They sent it to Hernando 
Madronero and me. I forwarded my copy directly to Mr. 
Madronero.
    Now, what is interesting to me is, I know that I have 
created an appearance of a conflict of interest. That was 
wrong, and for that I am sorry. I also know that to the extent 
that I did not note this on my annual ethics disclosure form, 
was also an error in judgment, but I want to be clear with you 
that this was in no way to serve any personal interest.
    I had no financial stake in this and, in fact, other than 
the interactions that I just described to you, I had no further 
interactions with Hernando Madronero, no one in Santa Domingo, 
and no one on the staff. I allowed this to be handled by a 
staff member who is a senior executive and so he could make 
full disposition on the matter and determine how to proceed.
    Now, what failed me in this was my instincts. You can ask, 
how can an experienced CEO end up in this situation? Well, it 
is my instincts. You see, I was not as clear then as I am now 
that the USOC culture is a culture of ``I gotcha, I gotcha.'' 
It is not a culture of working together to figure out how we 
navigate our way through the rocky shoals of all that we are 
faced with day in and day out. It is, I gotcha, and my 
instincts failed me, and so to the extent that I might have 
been walking off the edge of a cliff, I am used to someone 
saying, hey, you know, your next step you go off the edge of a 
cliff. I am not used to them building bleachers and selling 
tickets, and that, in my estimation, is what happened here.
    Mr. Rodgers, if you are to believe him, only got knowledge 
of this in October. There is indication in there Fielding 
report that Mr. Rodgers was advised of this in April. There are 
also indications that our general counsel (Mr. Jeff Benz) was 
advised of this in April. Of course, Mr. Madronero was aware of 
this when I first made the request of him. At no point did 
anyone suggest that there was any danger, and because I felt 
that this was something that would serve athletes, and I had my 
hands totally off, I felt that Hernando could make the 
decisions and he could move forward as he saw fit. I never 
pressured him in any way.
    So here we are, and this assertion that Mr. Rodgers is 
making today that somehow proprietary information of the USOC 
ended up in the presentation of EMT is absolutely false, in the 
sense that I provided no information and no perspective, and 
certainly no proprietary information to EMT whatsoever, and I 
resent the implication.
    Now, having said that, this situation was reviewed 
thoroughly by a distinguished group of renowned individuals. 
They came to a unanimous conclusion, and after reviewing the 
facts their conclusion was, in fact, shared with the Executive 
Committee. They went through a process of evaluation and making 
a determination on its disposition.
    That disposition is yet to come through an internal 
process, and I look forward to concluding this matter with that 
final result. I accept the report, and I will accept the 
disposition. This is a matter of critical importance to me, 
because my whole life has been about ethics. It has been about 
walking the talk and truly standing up for what I believe in, 
and this attack on me is something that has deeply saddened me.
    Now, having said that, I have to soak it up and move 
forward, but I want you to understand that this in no way was 
anything that was self-serving for me or for my family or 
friends.
    Next, I would like to talk to you about the leadership 
crisis in the USOC. The leadership crisis in the USOC today is 
manifest in two people, Marty Mankamyer and Lloyd Ward, and 
while we should take our full responsibility for whatever part 
we played in the situation we are in today, I would like to 
suggest to you that this does beg a bigger issue, as Senator 
Breaux was trying to define, and that is, this is an issue of 
ideologies and of culture. This is an issue of holding on to 
the practices of the past, or reaching to a better tomorrow. 
The USOC governance structure is not designed for efficiency, 
effectiveness, and business operation. It is a structure with 
123 board members and 23 Executive Committee members.
    The board, in its inception, was not much of a barrier. In 
fact, Senator Stevens in the Amateur Sports Act of 1978 created 
a magnificent mission for the Olympics, to lead the world's 
best National Olympic Committee to help athletes achieve 
sustained competitive excellence while inspiring all Americans 
and preserving the Olympic ideal. That is magnificent, but what 
the act did not do is define the roles, the structures, and the 
levels of authority and power.
    So what is missing? What is missing, in an organization 
that has a bloated bureaucracy in terms of governance, are 
organizational processes that clearly define roles, 
responsibilities, lines of authority, and who is responsible 
for what.
    Now, you would think that grown people could figure that 
out, but what is underneath it is a culture. It is a culture 
which, in the 25 years since the commissioning of the Olympics 
under the Ted Stevens Amateur Sports Act, has had 12 CEO's and 
9 presidents. Without exception, almost every administration 
had discord and disharmony along the way, and many of the 
presidents and CEO's left before their normal scheduled time.
    This is not just an issue of today. This is an issue that 
has been ever present in the USOC. It is time for us to reach 
for a better tomorrow. We have to move beyond political 
agendas, personal self-interest, and we have to start to serve 
the greater good.
    Did I make an error in judgment? Yes, but I did not create 
an unethical act.
    Could I have been smarter about it? Yes, and I will be in 
the future, but this issue is much broader than that. This 
issue is about the future of our athletes and the future of 
this movement, and I am here to say that the organizational 
structure that we have today will not serve our athletes, it 
will not serve society, and it will not deliver on the mandate 
that you have provided us.
    So let me move to my third point, and that is, what do we 
do going forward? I support Ms. Godino's recommendation, that 
we should appoint under your auspices a blue ribbon commission, 
which would look at a new architecture for the United States 
Olympic Committee--streamlined and focused. But we have to 
understand as we are moving from the sport of the Olympics to 
the business of the Olympics. In 1978 our budget was $50 
million. Today, it is $500 million, a tenfold growth. Our 
governance structure has not kept up with the challenges and 
demands of being an Olympic business.
    Our sponsors are saying that if you want us to continue to 
invest in you, you have to show us a return on our investment, 
and with 17 days of glory every other year, the Olympic games 
themselves are insufficient to produce this return. We have to 
create a new inventory of assets. We have to expand our reach 
into society. We have to have more contact points so that we 
create opportunities to advance and preserve the Olympic ideal 
and provide a return to those sponsors that invest in us.
    We have challenges going forward, and I would like to say 
clearly that it is not the people. We have incredibly 
passionate and talented people on our staff, 500 strong, and if 
you think about the ratio of board members to staff, it is 1 to 
5. We have one director for every five staff persons. That is 
top heavy. These people come to work every day compassionate 
and committed to do whatever it is to serve and support our 
athletes to help them achieve their Olympic dreams.
    We have thousands of people that volunteer their services 
beyond those that serve on our board every day to help us help 
our athletes achieve their Olympic dreams, and we have 
incredibly talented professionals that I think are at the 
starting gate and ready to run the race for a better tomorrow.
    I encourage the Senate to intervene. I encourage Congress 
to establish a blue ribbon panel. It ought to include 
independent, knowledgeable resources that can take a look at 
the rearchitecture of the United States Olympic Committee.
    Thank you.
    The Chairman. Thank you very much.
    Ms. Mankamyer.

STATEMENT OF MARTY MANKAMYER, PRESIDENT, UNITED STATES OLYMPIC 
                           COMMITTEE

    Ms. Mankamyer. Thank you, Mr. Chairman. Thank all of you 
Senators for having us here. Good afternoon, and thank you for 
giving me the opportunity to address the Committee concerning 
the issues we at the USOC are currently grappling with. As you 
may know, I am grateful and proud to serve the USOC as a 
volunteer since 1984, when I first became a member of the Games 
Preparation Committee.
    I have lived in the Village in Martaplata, Argentina, I 
lived in the Village in Sydney, Australia. I know the athletes. 
I recognize----
    The Chairman. Pull that microphone just a little bit 
closer.
    Ms. Mankamyer. I recognize what we should be doing for 
them, and that is why we need to be here, and to make some 
changes.
    Beginning in 1990, I served on the USOC board and National 
Governing Body Council and was elected Vice President, 
Secretariat of the USOC. In August 2002, when I was elected 
president of the USOC, I made it clear that I was elected for 
nothing, and I was interested in nothing more than serving for 
the remainder of the present quadrennial, which ends after the 
2004 Athens Olympics. I have no political agenda and would not 
run for reelection.
    Throughout my career, one of my particular focuses has been 
on making sure that the doors are open for women to participate 
in sports. The present circumstances are a great disappointment 
to me and, indeed, I find them, after my 20 years of volunteer 
work, heartbreaking.
    As you know, substantial controversy resulted from an 
investigation into the conduct of USOC's chief executive 
officer, Lloyd Ward. I am not here to discuss the merits of 
that inquiry. Instead, I am here to discuss why that inquiry 
resulted in so much public controversy, much of it targeted at 
me. Simply put, I do not understand why I have been the target 
of such attacks. In my view, in any organization, but 
especially in the case of a public organization dedicated to 
serving amateur athletes, any alleged conflict of interest 
should be reviewed with the greatest care, otherwise the 
athletes and the public will lose faith in the organization.
    I did not want another Salt Lake, and by the way, it was I 
who put the ethics component review for future officers in our 
process before I was elected, and I hope it always stays there, 
but it was important to me that we have all future leaders 
vetted by the ethics process.
    At the Executive Committee meeting on January 13, Vice 
President Paul George referred to our Ethics Oversight 
Committee as a blue ribbon panel. I agree. Here, we had an 
ethical issue important enough to eventually cause the protest 
resignations of three members of this blue ribbon panel. The 
USOC ethics compliance officer, and a valued and respected 
member of the Executive Committee. I merely expressed my 
conviction that an issue causing such resignations warranted 
more thorough review. As a result, I became embroiled in 
controversy and became the subject of public attacks. That does 
not make sense to me.
    How can it be wrong, or contrary to the interest of the 
USOC and the athletes it serves, to suggest that a more 
thorough and careful review of an ethics issue is appropriate, 
particularly where I have the responsibility to maintain public 
confidence in the USOC? In such circumstances, shouldn't the 
USOC take a harder look, if for no other reason than to restore 
the confidence of the athletes and the public and the sponsors 
that support them? That and nothing more is what I have 
advocated, and I have nevertheless been subjected to personal 
attacks from a small faction of the Executive Committee.
    Let me be clear, I did not leak information about the 
inquiry to the press. Although I believe strongly that greater 
transparency is necessary to restore public confidence in our 
organization, I take seriously the USOC's longstanding policy 
designed to prevent improper leaks to the press, and did not 
engage in such behavior. Any allegation to the contrary is 
simply false.
    Most important, although I am disappointed by these 
attacks, I believe they and the present controversy serve a 
greater purpose, a focus on the governance of the USOC. In my 
view, many of the recommendations of the President's Commission 
on Olympic Sports, if they had been implemented, that would 
have made a much better situation.
    It is true, as all of us have opined, that 123-member board 
of directors is too large. So, too, is a 21-member Executive 
Committee. Such an organizational change, and you have heard it 
throughout, would lead to more efficient decisionmaking and 
increased accountability. At the same time, conflicting and 
confusing organizational rules must be changed, such as the 
fact that the USOC president is responsible for the management 
of key international and governmental relationships, whole the 
CEO is responsible for hiring and firing the staff personnel 
assigned to that effort.
    The changes I advocate, and others that should be 
considered by a reviewing body, would also make us better, 
continuing to provide support to our National Governing Bodies 
and to our constituent members, at examining and monitoring our 
budget and administrative overhead to ensure our organization 
is providing maximum deliverables with minimum cost, and at 
assuring our sponsors that their investment and trust in us is 
warranted.
    Last, and as I previously noted, I believe it is imperative 
that we introduce greater transparency into our processes as a 
means of restoring public confidence in the integrity of the 
organization and its ability to fulfill its primary mission of 
promoting amateur athletes to pursue their goals. Public 
scrutiny of the USOC should be encouraged and promoted in the 
organization's policies in the future, and let me say, by 
saying the volunteers are terribly important to the USOC, which 
depends on their extensive devotion of personal resources to 
help our athletes, I feel that behind the athletes, who must 
always come first, my most important constituency is the 
volunteers who put on the show.
    It is my responsibility as president to lead the USOC, and 
in that capacity I am the most visible of all the thousands of 
volunteers who devote themselves to the organization. Sometimes 
that responsibility makes reasonable disagreement with 
different constituencies unavoidable. It is my goal to resolve 
those disagreements through a process of discussion and 
consensus that is designed to maximize the goals of the USOC 
and the athletes it serves. I am confident my efforts have been 
in the furtherance of that purpose. I look forward to resolving 
these issues, and to the work that remains.
    And may I make just one other statement in response to one 
of Mr. Duberstein's, please, Mr. Chairman. Mr. Duberstein's 
recollection of a conversation and mine vary significantly. I 
know that I never said the word, disciplinary. I would not do 
that. I would not rejudge that committee's action, and as a 
matter of fact it was he who told me that they would not make a 
recommendation, and that I must give it to the Executive 
Committee.
    Thank you.
    [The prepared statement of Ms. Mankamyer follows:]

 Prepared Statement Marty Mankamyer, President, United States Olympic 
                               Committee
    Mr. Chairman and Members of the Committee:
    Good afternoon and thank you for giving me the opportunity to 
address the Committee concerning the issues we at the USOC are 
currently grappling with. As you may know, I am grateful and proud to 
have served as a USOC volunteer since 1984, when I first became a 
member of the Games Preparation Committee. Beginning in 1990, I served 
on the USOC Board and National Governing Body Council, and in 2000 I 
was elected Vice-President--Secretariat of the USOC. In August 2002, 
when I was elected President of the USOC, I made it clear that I was 
interested in nothing more than serving for the remainder of the 
present quadrennial (which ends after the 2004 Athens Olympics) and 
would not run for re-election. Since I have no aspirations to future 
leadership positions in the USOC, I believe I am one of the very few 
people who are well-positioned to deal in an unbiased fashion with the 
difficult issues facing the USOC, and I am requesting that you, 
Senators, along with your colleagues in the House, work with the USOC 
to mandate the changes necessary to move the organization forward.
    After almost twenty years of volunteering for the USOC, I am very 
concerned about its future, particularly in light of the disagreements 
and controversies that have caused us to be here today. Indeed, I 
recognize that for everyone who loves the Olympic Movement and amateur 
sports--as I do--the events of the past two weeks and the attendant 
press reports have been a great disappointment. You have asked, ``What 
happened to bring us to where we are today?'' I am here to try to 
answer that question.
    I believe there are really three factors that are responsible. 
First, a situation arose requiring review by the Ethics Oversight 
Committee and a vote of the Executive Committee. Second, there were 
improper and continuous leaks of confidential information to the press 
about that ethics issue. Third, as must now be obvious to everyone, the 
governmental structure of the USOC must be re-examined and streamlined. 
I will address each of these three factors in turn.
I. The Ethics Issue.
    As to the first factor (and as others have stated before this 
panel), substantial controversy has resulted from the decision by the 
USOC Executive Committee after its receipt and review of the report of 
the Ethics Oversight Committee, which was chaired by Mr. Ken 
Duberstein, concerning the conduct of the USOC's Chief Executive 
Officer, Lloyd Ward. The Executive Committee ultimately accepted and 
adopted the report of the Ethics Oversight Committee, which in turn 
initially concluded that there was only an ``appearance of conflict of 
interest'' on the part of Mr. Ward. As a result of that determination, 
three members of the Ethics Oversight Committee, a member of the USOC 
Executive Committee, and the USOC's Ethics Compliance Officer have 
resigned in protest. Subsequently, and without any formal action by the 
USOC Executive Committee, my critics have clarified their position at 
least to acknowledge a ``technical violation'' of the USOC Code of 
Ethics by Mr. Ward, even though the term ``technical violation'' is 
nowhere to be found in the USOC Code of Ethics.
    I am not the person in the best position to speak to the Ethics 
Oversight Committee's process and how it worked in this instance. 
Needless to say, I believe that it is essential that the Ethics 
Oversight Committee itself be free from perceived or actual conflicts 
of interest. But it is not, and was not, my role to make substantive 
ethics determinations; and I played no part in the deliberative process 
concerning the issues before the Ethics Oversight Committee. Instead, 
my role consisted of only two peripheral activities.
    First, at the request of Ethics Compliance Officer Pat Rodgers, and 
in my capacity as an ex officio member of the Committee (as President 
of USOC), I participated in one teleconference to determine whether 
resources should be allocated to retain outside counsel for the 
Committee. Although the decision was made to retain outside counsel, I 
did not take part in that decision or the deliberations that preceded 
it--I merely listened in on the call, as I was asked to do by Mr. 
Rodgers.
    Much later, and only after the conclusion of the Committee's 
substantive deliberations, the Committee's chairman, Mr. Duberstein, 
informed me that although the Committee had arrived at certain 
findings, it would not make a recommendation. Although I did not fully 
appreciate this at the time, the USOC Bylaws do not permit the 
Committee to decline to make a recommendation. Specifically, Chapter 
XIX of the USOC Bylaws states that the Ethics Oversight Committee's 
``responsibilities shall be . . . to review and investigate such 
matters relating to ethical practice as it may deem appropriate and to 
make recommendations resulting therefrom . . . to the Executive 
Committee (if concerning the Chief Executive Officer . . . ).'' 
(Emphasis added).
    Mr. Duberstein instead told me that in the absence of a 
recommendation by the Ethics Oversight Committee, a decision of the 
Executive Committee would be required. As a result, and pursuant to my 
responsibilities as President of the USOC, I then convened a special 
meeting of the Executive Committee to review the report of the Ethics 
Oversight Committee and issue a recommendation, as the Ethics Oversight 
Committee had failed to do. I recused myself from those deliberations, 
however, out of an excess of caution and due to concerns expressed by 
some committee members that past policy differences between Mr. Ward 
and me would make my involvement in the deliberations 
counterproductive.
    The resolution announced by the Executive Committee on January 13th 
was inconclusive of the underlying issues, since it led to resignations 
by three members of the Ethics Oversight Committee, the USOC Ethics 
Compliance Officer and a member of the Executive Committee.
    After I refused to resign as President of the USOC, I was publicly 
accused in a press conference by certain of my fellow officers of 
leaking information to the press, using the ethics review process to 
achieve political purposes, and operating the USOC in a way 
inconsistent with conducting a fair and reasonable review of Mr. Ward's 
conduct. It is my understanding that the press release making these 
accusations was at least in part prepared by outside counsel hired to 
represent the Executive Committee--of which I am the presiding 
officer--even though I was given no opportunity to participate in any 
way in the consideration of whether that press release was appropriate. 
Because that press release advanced the personal goals of seven members 
of the Committee but did not even attempt to represent the Committee as 
a whole, the payment of counsel from USOC funds seems to me no 
different than the appropriation of corporate assets for private 
purposes. It is perhaps not surprising that I initially agreed to 
resign when confronted with such attacks. However, on reconsideration I 
decided that it was fundamentally improper for my critics (aided by 
legal counsel) to ask me to resign, when all I had done was to try to 
focus the organization on an issue of such a level of magnitude as to 
cause the protest resignations of so many fine people.
    It seems to me that when an issue arises of the type that will 
cause honorable and capable individuals to resign in protest in 
wholesale fashion, it is plain that such an issue warrants the concern 
and focus of the USOC. Indeed, it is difficult for me to imagine any 
corporation--governmental or private--in which comparable resignations 
could occur but where it would not be thought important to look closely 
at the underlying causes. Although I have been criticized for 
articulating this point of view, I do not believe those criticisms are 
well-founded. In particular, I do not believe that my past policy 
disagreements with Mr. Ward should preclude me from fulfilling my 
responsibilities as USOC President by articulating this basic 
viewpoint. If that were to be the case, once the President has policy 
disagreements with any other senior officer, there are then important 
responsibilities the President can no longer execute. This cannot be 
correct, and no other organization to my knowledge functions this way.
    What I was doing, and all that I was doing, was asking that an 
issue of this magnitude--which had caused such fundamental division--be 
reviewed with the greatest care. Especially given the controversy that 
the resignations have caused, and the failure of the Ethics Oversight 
Committee to fulfill its responsibilities under the USOC Bylaws, I 
believe it should be evident why it was in the USOC's best interests to 
engage in, and be perceived to have engaged in, the most careful and 
extensive review of the matter. Independent of the specific 
determinations in this case or my reactions to it, it is obvious that 
we have problems that remain unaddressed: An organization dedicated to 
the high ideals embodied by the Olympics and to the support of the 
extraordinary efforts of our athletes simply should not find itself 
required to devote so much of its time and energies to the resolution 
of such troubling issues.
II. Dissemination of Information to the Media.
    As for the second factor that brings us here today, the 
dissemination of information to the press, I want to make three points. 
To begin with, I want to make absolutely clear that I did not leak 
information to the press.
    Next, the USOC has a longstanding policy designed to prevent 
improper press leaks. Under that policy, the only spokespersons for the 
USOC are the President, the CEO and the Managing Director of USOC Media 
Relations and Programs. That policy should be enforced.
    Finally, and perhaps most importantly, the Bylaws themselves 
require sensitive documents to be disseminated broadly prior to 
committee and board meetings. Right now, before the Executive Committee 
can meet to consider a report of the Ethics Oversight Committee, the 
USOC Bylaws require that ``in order for the [Committee] to take action 
on a specific matter at a particular meeting, the agenda for such 
meeting must describe the matter with sufficient particularity and be 
accompanied by sufficient supporting materials (to the extent then 
available) as to afford the members of such body reasonable notice that 
it will be offered for consideration.'' Consistent with this and other 
Bylaws, I was required to disseminate to the 21-member Executive 
Committee a set of the documents considered by the Ethics Oversight 
Committee along with the meeting agenda.
    Accordingly, the claim that I unnecessarily allowed information to 
be distributed is inaccurate. In particular, it has been charged that I 
attempted ``to only present the most damaging information and to 
present it in a way that would encourage the Executive Committee and 
the public to prejudge Mr. Ward as unfit for continued employment 
before they ever had an opportunity to view a complete record of the 
facts and circumstances.'' This is simply not true. The materials I 
transmitted to the Executive Committee contained exactly the same 
documents that were considered by the Ethics Oversight Committee, with 
the single exception of a Dun & Bradstreet report, the accuracy of 
which could not be confirmed and which was therefore omitted.
    This policy requiring broad dissemination of information obviously 
increases the chances that a leak will occur. Indeed, one could read 
the USOC Bylaws XIX to require that the entire 123-member USOC Board 
was responsible for considering the findings of the Ethics Oversight 
Committee. I chose to convene the Executive Committee in a special 
executive session, which not only avoided a sweeping distribution of 
information to 123 Board Members, but further contained it by avoiding 
the involvement of a relatively large number of staff members and 
advisors to the Committee in the deliberations. (As discussed in 
Section III below, I believe, for reasons unrelated to issues of 
information dissemination, that USOC governance would benefit if the 
size of its governing bodies were reduced.)
    Ultimately, however, it is not practical or desirable to try to 
avoid leaks by unduly restricting the flow of information within the 
USOC. The USOC's committees cannot govern unless they are able to make 
informed decisions. Especially given its public mission, the USOC 
should try hard to avoid leaks, but not at the expense of compromising 
either informed decision-making within the organization or informed 
public scrutiny of the organization's decisions.
III. Potential Improvements in Governance.
    The last issue I would like to address is corporate governance. 
Although it is necessary to clarify the ethics review process and 
eliminate leaks to the press, the governance issues facing the USOC are 
clearly of equal or greater importance and present a potentially 
greater challenge.
    The Federal Amateur Sports Act, authored by Senator Stevens, was 
based on the report of the President's Commission on Olympic Sports, a 
commission upon which Senator Stevens served. It is my view that the 
current problems of the USOC would have been significantly reduced if 
one major recommendation of the Commission had been implemented--that 
being its recommendation that the USOC Board of Directors be reduced to 
15 persons. We need to make the USOC governance structure smaller and 
more efficient. A 123-member Board of Directors is simply too large. So 
too is a 21-member Executive Committee which, with the addition of 
special assistants, advisors and others, brings the size of any meeting 
to over 50 people. To place USOC governance in the hands of so many 
people is to make decision-making inefficient and place effective 
oversight at risk. Having fewer people be more directly responsible for 
the governance of the USOC will increase the accountability and level 
of involvement of each of them, while smaller deliberative bodies will 
be able to act more quickly and efficiently and to describe their 
deliberations and decisions more accurately. Reducing the number of 
people involved in oversight will also, to some extent, reduce the 
danger of improper leaks to the press by avoiding the need for unduly 
broad distributions of sensitive material.
    Next, we need to make changes necessary to assure that 
organizational roles and responsibilities are clearly defined and 
adhered to. For example, the currently mandated organizational 
structure places the management of key international and governmental 
relationships under the control of the USOC President, where they 
should be placed, given the level of international experience typically 
possessed by those who hold that office, but the Chief Executive 
Officer is given conflicting responsibility for hiring and firing the 
staff personnel assigned to that effort. For example, Hernando 
Madronero, the Director of USOC International Relations, was terminated 
by Mr. Ward. (This issue also overlaps other issues considered today--
before being terminated, Mr. Madronero received directions from Mr. 
Ward in connection with the conduct of Mr. Ward giving rise to the 
ethics issue that has led to the present controversy.) Such structural 
deficiencies, which result in confusion and conflict, are too 
commonplace at the USOC, and should be eliminated.
    Changes such as these, I believe, would aid us in our primary 
mission, which is to do all we can to guarantee that our athletes are 
able to train and succeed in their quest to compete in and win medals 
in the Olympic, Pan American and Paralympic Games. These changes would 
also make us better at continuing to provide support to our National 
Governing Bodies and to our constituent members; at examining and 
monitoring our budget and administrative overhead to ensure our 
organization is providing maximum deliverables with minimum cost; and 
at assuring our sponsors that their investments and trust in us is 
warranted. These objectives are clearly more important to us than ever, 
given that Forbes Magazine recently identified the USOC as one of a 
number of nonprofits it ``recommends avoiding--or at least taking a 
very close look at,'' because its fundraising efficiency falls below 70 
percent. This is of great concern to us, as it must be to you. Of 
course, we must also strive to better service our existing sponsor 
contracts and maximize our opportunities to renew them; and to seek new 
sources of revenue, particularly in the donor giving area.
    Lastly, as an element of the revisions needed to the corporate 
governance structure of the USOC, I believe it is imperative that we 
introduce greater transparency into our processes as a means of 
restoring public confidence in the integrity of the organization and 
its ability to fulfill its primary mission of promoting amateur 
athletes pursue their goals. While in the recent controversy the 
premature dissemination of information to the press contributed greatly 
to the controversies that sparked this hearing, public scrutiny of the 
USOC should be encouraged and promoted in the organization's policies 
in the future.
    Again, I share the view of those who criticize these leaks as 
counterproductive to the deliberative process in this matter. The 
USOC's committees must be able to deliberate in private and must be 
able to create certain documents that are not properly disseminated to 
the media. However, as noted above, apart from enforcing the rules 
against leaks, there is a limit to how far it is possible to go to stop 
them, without potentially compromising other important goals. (Reducing 
the size of governing committees, which has other important governance 
benefits, may incidentally also help reduce leaks.) The present 
controversies unavoidably erode public confidence in the USOC, which 
harms our athletes--the exact opposite of what the USOC is established 
to do. Adequate public awareness of the ethical oversight process of 
this organization is an important element of restoring faith in the 
USOC.
    Let me close by saying that volunteers are terribly important to 
the USOC, which depends upon their extensive devotion of personal 
resources to help our athletes. I feel that behind the athletes--who 
must always come first--my most important constituency is the 
volunteers who put on the show. It is my responsibility as President to 
lead the USOC, and in that capacity I am the most visible of all of the 
thousands of volunteers who devote themselves to the organization. 
Sometimes that responsibility makes reasonable disagreements with 
different constituencies unavoidable; it is my goal to resolve those 
disagreements through a process of discussion and consensus that is 
designed to maximize the goals of the USOC and the athletes it serves. 
I am confident that my efforts have been in furtherance of that 
purpose. I look forward to resolving these issues and to the work that 
remains.
    Once again, I appreciate the opportunity to discuss with this 
Committee the issues we at the USOC are struggling with. With the 
guidance and support of Congress and the American people, and a 
redoubled effort to address the governance issues that confront the 
USOC, I am sure we can make the organization one of which all of us--
athletes, volunteers and all Americans--can be proud.

    The Chairman. Thank you very much.
    Ms. Godino, in your statement you said that it is simply 
not true that Mr. Ward was cleared of wrongdoing. Mr. Ward was 
not cleared of wrongdoing. The Compensation Committee was 
directed to handle disciplinary action for Mr. Ward through his 
performance review. Does the Compensation Committee have any 
disciplinary powers besides cutting somebody's pay?
    Ms. Godino. I believe that would be the disciplinary 
action.
    The Chairman. So by referring it to the Compensation 
Committee you basically decided that the punishment would 
entail something monetary and not a formal censure, or 
expulsion, or anything else, is that right?
    Ms. Godino. It is accurate that the Compensation Committee, 
the intention for referring it to the Compensation Committee to 
enact the penalty was for there to be financial punishment, 
yes.
    The Chairman. And none other?
    Ms. Godino. No. By accepting the report, I think it also, 
at least to my thinking, is that it was also an acceptance of 
the report, which said that there were violations of the code 
of ethics.
    The Chairman. But there was no further penalty besides some 
compensation penalties?
    Ms. Godino. Correct.
    The Chairman. Why do you suggest Ms. Mankamyer resign, and 
who else shares your views?
    Ms. Godino. The request for her to resign--I will answer 
the second part first--was made by the five USOC vice 
presidents, the chair of the National Governing Bodies, and 
myself.
    The Chairman. Which is basically all of them, right?
    Ms. Godino. I am sorry.
    The Chairman. That is a very significant portion of the 
governing body?
    Ms. Godino. I think that's accurate, because of her conduct 
leading up to the January 13 meeting, and her handling of this 
matter.
    The Chairman. Her conduct was?
    Ms. Godino. I am going to read from my statement, if that 
is OK with you. Her control of her calling Executive Committee 
meetings, setting of Executive Committee agendas, and 
identifying materials to be disseminated to the members of the 
Executive Committee were such that it made it more difficult to 
conduct a fair and reasonable review of Mr. Ward's conduct.
    The Chairman. Well, I guess I would ask you to elaborate a 
little bit. To seek someone's removal from office, their 
handling of meetings and communications----
    Ms. Godino. Well, I think the officers believed--I believe 
that you have a copy of the materials that were mailed to the 
Executive Committee in advance of the January 13 meeting, which 
did not include the Ethics Oversight Committee report, which 
certainly was a central issue, and instead included a number of 
documents that suggested that Mr. Ward had done something 
perhaps even greater than what the Ethics Oversight Committee 
report ultimately found. It is my belief the Ethics Oversight 
Committee perhaps should have directed the entire referral of 
the matter to the Executive Committee.
    Also I think Ms. Mankamyer's involvement is alluded to in 
the Ethics Oversight Committee report when it discusses an 
abusive process, and talks about ex officio members, of which 
there is only one, to not participate in Ethics Oversight 
Committee discussions.
    The Chairman. Mr. Rodgers, as chief ethics compliance 
officer, did you fail to act on your knowledge of Mr. Ward's 
conduct when it was brought to your attention by Mr. Madronero 
in April 2002, and again when Mr. Ward signed his conflict of 
interest disclosure form?
    Mr. Rodgers. I absolutely failed to act in April because 
the two documents that I had in April was a letter from Lloyd 
Ward's brother and the chief executive officer of this company 
called Energy Management Technologies requesting that Lloyd 
invest $150,000 to help their company continue operations.
    I also reviewed at that time--the only other document I had 
was a business plan from the company. I submit to you that 
neither that letter nor that business plan said anything 
whatsoever about doing any business with the Olympic Committee 
or the Olympic family or any of our sponsors. It was simply a 
letter asking for an investment and an accompanying business 
plan. I did not receive the cover note that is referred to 
until October, and once I saw that cover note, which said come 
see me, this might be of interest, in Santa Domingo, which, of 
course, was 180 degrees different from what the business plan 
suggested, that got my attention.
    The Chairman. Are you responsible for the language of the 
disclosure forms?
    Mr. Rodgers. I am.
    The Chairman. Why is it that in 2001 it said, ``an 
employee's personal financial relationships have the ability to 
influence or be perceived to influence the objectivity of the 
decisions when representing or conducting business for or on 
behalf of the USOC'' was changed to, ``a conflict of interest 
exists when a volunteer or employee's outside activities or 
interests interfere with his or her job responsibilities, or 
the interest of the USOC?'' Words have meaning.
    Mr. Rodgers. There is a section in both of those which 
specifically referred to doing business with the Olympic 
family, and there is a different form for staff.
    The Chairman. Why did you change the language, Mr. Rodgers?
    Mr. Rodgers. The Ethics Committee changed the language.
    The Chairman. I just asked who was responsible, and you 
said you were. I asked if you were responsible for the 
language.
    Mr. Rodgers. I absolutely was, yes.
    The Chairman. Why was it changed?
    Mr. Rodgers. There was no intent to change it, other than 
make it what I thought was clearer.
    The Chairman. It is a significant change in language, Mr. 
Rodgers. I thank you.
    Mr. Ward, I have before me a handwritten letter from you. 
``This is an interesting proposal. It could be beneficial for 
the 2003 Pan Am Games. Let's discuss. Come see me this week, or 
today.''
    Then there's a letter to you from Mr. Williams and Rubert 
Ward that says, ``Dear Lloyd, thank you for taking the time to 
review and to critique the document, as we recognize the value 
of your time,'' then the letter goes on to say, ``you know, 
Lloyd, Rubert and I have been pursuing this opportunity for 
quite sometime. We've done so because we firmly believe that 
this project has the makings of a sure winner, a definite 
market need opportunity, and an enormous potential to make a 
great deal of money.''
    Then we have another letter dated July 8, 2002. The bottom 
paragraph says, ``therefore, we would be extremely appreciative 
of any direction, candid thoughts, actually we expect that from 
you anyway, and suggestions, up to and including a complete new 
approach to our presentation that you may have.''
    So clearly, correspondence went back and forth between you 
and the EMT people which, frankly, is a little more than what 
it appears you have portrayed to this committee. Please 
respond.
    Mr. Ward. Yes. I think you have to give some consideration, 
or I would ask you to give some consideration to the fact that 
oftentimes, when a person in a family achieves a level of 
success, there are many requests that are made of that 
individual, and I have many, many requests that are made of me 
all the time, as I am sure you can imagine. And there is a 
level of, let me call it hyperbole that comes with people in 
terms of their view of what you say and what you do, and most 
of it, quite frankly, is to encourage you to do things.
    I will tell you this, Senator, that the only conversations 
that I had were conversations and interactions that I described 
to you, and beyond that I did not critique their business plan, 
I did not provide information to the business plan, and I did 
not have any conversations with Mr. Williams on the proposal, 
or his interest in Santa Domingo.
    I did have a conversation with my brother, Rubert Ward, but 
I did not have conversations with Mr. Williams.
    The Chairman. Ms. Mankamyer, finally, and I appreciate the 
forbearance of my colleagues, Mr. Ward claims that his computer 
calendar was accessed without his authorization, including by 
your secretary, on multiple occasions. Is that true?
    Ms. Mankamyer. I do not know that, Senator.
    The Chairman. You do not know that is true, but your 
secretary was fired, is that correct?
    Ms. Mankamyer. May I correct that, Senator?
    The Chairman. Sure.
    Ms. Mankamyer. She was the chief of staff for the former 
president, Sandy Baldwin. When Sandy resigned, Mary Kay Parsons 
remained in Arizona and offered her services to me in the same 
capacity but on a long distance basis, and I was basically 
contemplating whether that would work, but I felt the cost was 
higher than it should be, and I was just allowing her to help 
on international letters, et cetera.
    I was called to Mr. Ward's office with Mr. Benz, and they 
told me that there had been a security breach, and I did not 
understand what it was about, and they finally said, someone 
accessed Mr. Ward's calendar, did you do it, and you would have 
to know me, I'm the worst person on a computer in the world. I 
could never do that.
    The Chairman. The question is your secretary, Ms. 
Mankamyer.
    Ms. Mankamyer. I understand that. She did say she did that. 
She was not my secretary per se, she was a USOC employee, and 
she was fired, I understand, for lying for an hour, 22-year 
employee with an exemplary record.
    The Chairman. Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman. Well, a couple 
of questions. It is pretty clear that Mr. Mankamyer and Mr. 
Ward are the center of this whole swirl, right or wrong. A lot 
of things have gone under the bridge, a lot of accusations, 
people sort of lined up on one side or the other.
    I am interested in knowing from them--now, you said, Ms. 
Mankamyer, you do not intend to run again. Is that correct?
    Ms. Mankamyer. That is true.
    Senator Campbell. I am interested in knowing how you expect 
to continue on the job for the remainder of your term. or for 
the remainder of your employment, Mr. Ward, when we are trying 
to focus on the Athens games when all this bad karma is going 
on among members of the hierarchy.
    Ms. Mankamyer. I actually have been contemplating a plan. 
The officers, some of whom have not been as engaged in the 
governance as they might have been, and which is wonderful, got 
quite involved with this process, and in so doing I actually 
came to the Executive Committee meeting in Denver on January 13 
with an idea of dividing up business units among the officers 
and having a full team effect with relating to the staff and 
the high level staff, and hoping to work forward on a more 
seamless basis of governance, so that would be my plan, sir.
    Senator Campbell. Mr. Ward.
    Mr. Ward. Senator, I came to the Olympic movement because I 
believe in it, and while I have never been an Olympian like you 
on the field of competition, I feel I have been an Olympian in 
life. I used sport to get an education, I used education to 
better myself in life, and every step along the way I have 
tried to do the right thing.
    I came here because I believed I had something to offer. I 
came here because I believed I could make a difference, and I 
think in my short tenure we are making a difference. We are 
ahead of our sponsorship renewals by a significant margin. At 
this time in the previous quad we have $50 million that are 
committed to our go-forward strategy for renewals. This time in 
the last quad we had one deal for $2.5 million.
    Senator Campbell. Let me ask you something about sponsors, 
since you did bring that up. According to David D'Alessandro of 
John Hancock, I read in one report that he said anyone who 
writes a check to the U.S. Olympic Committee now is crazy, or 
something to that effect.
    In the USOC, I also noted with interest Forbes recently did 
a report analyzing the efficiency of fundraising, and out of 
200 different charities that they analyzed the bottom three 
included United States Olympic Committee, which tells me, at 
least it suggests it is a very top heavy organization, and 
perhaps too many people have too many expense accounts and 
credit cards and cars, and whatever, because they have only 
something like a 65-percent efficiency rating according to 
Forbes, when the average is 85 and some as high as 95.
    Who specifically in the chain of command is the person 
responsible for the fundraising?
    Mr. Ward. In the chain of command we would have a chief 
development officer that would report to me. That chief 
development officer has moved on to other responsibilities in 
another company.
    Senator Campbell. And have you been aware of the efficiency 
rating of the USOC is that bad, that low?
    Mr. Ward. I am very aware of that. That report is a report 
of the USOC fundraising efficiency from data from the 2001 
calendar year, and it does not accurately represent the USOC. 
USOC is very different in its fundraising efforts. Most of the 
companies or organizations that the USOC was compared with were 
companies that raised the predominance of their money through 
fundraising. The USOC raises 80 percent of its fundraising 
through sponsors. Our revenue comes primarily from sponsors. 
Therefore, it is more of a business proposition.
    Now, having said that, I understand your point very well, 
and we have to get better in our fundraising efficiency. We 
will continue to drive our business results by helping sponsors 
get a return on their investment, and Mr. David D'Alessandro, 
who as you know is a very valued sponsor of the Olympic family, 
has been very outspoken in this regard. I have been in contact 
with him, and he and I are working a plan to satisfy his 
request and his needs.
    In addition, I plan to open up that communication with all 
of our sponsors and have regular interactions with them to give 
them much more visibility into the inner workings of the USOC.
    Senator Campbell. Well, when you talk about the return on 
their investment, I do not know for sure because I have not 
spoken with all the sponsors, but I have a hunch that the 
biggest return on the investment of the sponsors would be 
reading in the headlines about the two youngsters Ms. Godino 
mentioned about qualifying for the Athens games, and not 
reading about you, or any of you for that matter, in a tussle 
on the front page of the paper, but I can guarantee what the 
headlines will be tomorrow. It is not going to be about those 
two kids that made the team in Athens. It is going to be about 
the discord among the officials of the USOC. That is what is 
tragic, and that is the loss to the sponsors.
    Mr. Ward. That is tragic, and it is a loss to the American 
people and it is a loss to the athletes themselves, and I am 
with you, I am fed up with it as well. We have to choose a 
better way. We have to reach for a better tomorrow, and as one 
of our sponsors said in recent discussions with me, the issue 
for us is to stay out of the newspapers with the people in blue 
suits, with the bureaucrats and the administrators. We should 
be talking about our athletes, not about this movement, and not 
about me.
    This movement is not about me, this movement is not about 
Ms. Mankamyer. This movement is about our athletes, and I want 
reform in this movement, and I encourage Congress to help with 
that.
    Senator Campbell. Mr. Ward, we are going to help you with 
that, with Senator McCain's leadership and Senator Stevens. I 
can tell you, if the Olympic house cannot be cleaned up, 
Congress will be cleaning it up.
    Mr. Ward. If there is one other point I could make on that, 
actually there were several attempts historically for the USOC 
to address its governance structure, and we have not had the 
political will to get it done. It is better to be able to 
change from within. We have not had that will, and we will need 
some outside intervention.
    Senator Campbell. Thank you, Mr. Chairman.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Godino, on this question of punishment for Mr. Ward's 
ethical violations, your group of vice presidents is basically 
punting on the issue, which to me sends a lousy ethical 
message, but what I would like to do is to have you, since you 
are here, just give us your personal opinion about what you 
think would be a sanction that is commensurate with these 
serious ethical violations.
    Ms. Godino. Well, as I stated in my both written and oral 
testimony, I think the entire Executive Committee, the 18 to 3 
vote, 18 members of the Executive Committee believe that that 
sanction was appropriate based on the report that we have. So 
based on the Ethics Oversight Committee report that the 
appearance of the conflict of interest, and that the failure to 
make the written disclosure, along with considering the entire 
rest of the Ethics Oversight Committee report and the notes by 
Mr. Fielding, that that was the appropriate sanction.
    Senator Wyden. I am not going to belabor this, but I think 
that sends a message that this is no big deal, and I think that 
is very unfortunate.
    Mr. Ward, a question for you. You said in a statement, and 
I very much agree with----
    The Chairman. Excuse me. Maybe Ms. Godino wanted to 
respond.
    Ms. Godino. Thank you, Mr. Chairman.
    Most certainly not the message that we intended to send, 
and I have been frustrated at the continuing press reports that 
suggest that Mr. Ward was cleared of wrongdoing, or that there 
was no punishment. I do not believe that that is what occurred, 
and I do not believe that is the message the Ethics Committee 
intended to send. Ethics are incredibly important, and 
particularly as an athlete, that is something that we must 
have, the highest ethical standards.
    Senator Wyden. Again, the reason I asked the question this 
afternoon, I just wanted to give you a chance to state what you 
thought personally would be an appropriate penalty, and again I 
will just offer my opinion that that does not send much of a 
message and does not indicate that it is a priority. I 
personally think that is unfortunate.
    Mr. Ward, if I might, you said life was about standing up 
for what you believe in, and that is something I very much 
agree with, and I wanted to ask you along those lines whether, 
as of now, you belong to the Augusta National Golf Club?
    Mr. Ward. Yes, I do, Senator.
    Senator Wyden. I am sure you are aware of their policy with 
respect to women, and specifically the United States Olympic 
Committee, and I will quote here, is set up to encourage and 
provide assistance to amateur athletic activities for women.
    My question to you is, do you think your membership in the 
Augusta National Golf Club is consistent with one of the major 
purposes of the United States Olympic Committee?
    Mr. Ward. Senator, I would say this, that (1) my record and 
my stance on inclusion and fighting for equal participation for 
minorities, gender equity and the like, speaks for itself from 
my 32 years in the professional world, and I will stand on that 
record.
    Point 2, I am a proud member of Augusta. It is a great 
golfing institution, and part of the heritage of the great 
Bobby Jones, but point 3, and I think the most important point, 
is that those that would want me to resign from Augusta see the 
world very differently than I do. They see my membership in 
Augusta as a privilege, and let me tell you how I, as a 
minority, see my membership in Augusta. I see it as a 
responsibility. You see, I have been first in my life in many 
things, not because I am special, but because the world has 
tended to deny opportunities to some and provide it to others. 
And, I have been fortunate to be one in which opportunity has 
been provided. And, when that door has had a slight crack for 
me I have always taken that as a responsibility to open the 
door wider for those that might follow.
    And so while your sensibility and others might be, that you 
would show your displeasure by resigning, that is not my 
sensibility. My sensibility is to take the responsibility to 
try to open the door wider for those that would follow, and 
that is why I am still a member of Augusta.
    Senator Wyden. I understand. This afternoon I have not 
suggested anything about resigning. I just wanted to get on the 
record specifically how you felt that was compatible with the 
United States Olympic Committee. You have stated your answer.
    Mr. Ward. And the backdrop, Senator, of your question, and 
you did not ask it, and I certainly appreciate that 
clarification; but in fact, we had a detailed discussion in the 
United States Olympic Committee about that very issue, so I 
wanted to clarify my position.
    Senator Wyden. That is certainly fair enough.
    Mr. Rodgers, a question for you, if I might. I would like 
to have you detail some more of your discussions with respect 
to Mr. Duberstein and the ethical questions. I think we batted 
this around several times over the course of the afternoon, and 
I am still not clear about exactly what kind of information was 
exchanged in those discussions, and would like to have you 
detail those at this time.
    Mr. Rodgers. Thank you, Senator. The first discussions that 
I had with Mr. Duberstein concerning this issue actually 
occurred in August at the Hilton Hotel in Chicago. He and I had 
dinner prior to the Presidential election, and I went over with 
Mr. Duberstein most everything that was going on in my office, 
including the first two documents that I mentioned, the letter 
and the business plan, and the fact that there was nothing in 
either of those documents which in any way suggested any 
unethical conduct on the part of the CEO, and can agree.
    Nothing then happened, period, until the day Mr. Madronero 
was let go. At lunch, Mr. Madronero was expressing 
disappointment about how he was treated when he was let go, 
walked off the campus, and also mentioned, after all I had done 
for his brother, and at that time I said, ``What do you mean, 
after all you had done for his brother? '' Mr. Madronero then 
said, ``Well, he made a couple of appointments, no big deal, he 
basically just wanted to put it all behind him.''
    I then pressed him for any and all documents that he had. 
That is where the document signed by Mr. Ward came about, the 
document with a phone number on it, and then I applied that 
document, the cover document to these original two, and now I 
had an ethics issue.
    I then reported it to Mr. Duberstein as an ethics issue 
about 11 October, and I followed it up with a phone call. His 
initial reaction after reading it was, well, it looks to me 
like this is a lot about nothing. I disagreed with him that it 
was a lot about nothing and said the full Ethics Committee 
needed to make that determination. He agreed to that.
    I sent those same materials to the full Ethics Committee. 
The Ethics Committee met and concluded that it was necessary--
and this was my recommendation--that we get outside counsel to 
look into the facts and circumstances surrounding it. Outside 
counsel was determined to be Mr. Fielding. Mr. Fielding was to 
do interviews and then report back to the committee before he 
proceeded further, and he was to initially interview Mr. Ward 
and to look into the financial background as to whether or not 
Mr. Ward had financial interests in this company.
    When Mr. Fielding then had his report ready, he, Mr. 
Duberstein and I were on the telephone in a preconference call, 
Mr. Fielding basically read his report and said he had 
concluded that Lloyd Ward was absolutely above board in 
everything he did, because Lloyd fully intended to disclose 
this matter should any business issue actually develop out of 
it.
    I expressed an obvious reaction to that. I disagreed with 
him. From my perspective it never made a difference whether or 
not any business venture actually transpired.
    He also made the statement Mr. Ward had no financial 
investment, and I said, ``How did you determine that? '', and 
he said, ``Well, I asked him.'' My response was, ``The last 
time somebody told me that, I asked them for a copy of their 
tax return.'' I mean, it is fair to say you do not know whether 
he had a financial investment, or that he said he did not, but 
it is not fair to say that he did not, because in fact we did 
not know that.
    We got into that discussion, which overlapped into the 
regular call, to the point where when the regular call occurred 
with all of the members, we agreed, we being Mr. Duberstein, I 
and Mr. Fielding, that it would not be fair to continue the 
conversation until everybody from the Ethics Committee had a 
written report, so the call was brief. It was agreed that, in 
fact, there would be a written report, that report would to go 
the committee within 10 days, and then a conference call would 
resume.
    Immediately following that call, Mr. Duberstein called me 
back and he said, ``Look, I am telling you something between 
you and I, you need to find a way to make this go away.'' I do 
not care what Mr. Duberstein said, that is what he told me, and 
I said, ``Ken, I am not going to find a way to make it go 
away.''
    By now we had a pretty good working relationship, and I 
thought he understood where I was coming from. He said, well, 
you think about it overnight and call me back the next day. I 
did call him back, and I said, ``Ken, I am sure it is not a 
surprise to you, but I am not going to make this go away.''
    He said, ``well, I think you are biased.'' Your biased was 
his response. ``I think you do not like Lloyd Ward, and I do 
not want this committee used for political purposes, therefore 
I think you should recuse yourself.''
    I said, ``I will recuse myself, Ken, provided I have an 
opportunity to read the report, whatever it is,'' and that my 
input goes to the full committee, and we agreed that I would 
recuse myself.
    Subsequent to that date, I discovered additional documents 
in Mr. Madronero's office, the July 8 letter specifically, and 
the actual presentation. I forwarded those to Mr. Fielding and 
to Mr. Duberstein. To me, that added an additional problem 
because of the proprietary photographs, and to me there was 
clear evidence that there was something more to this proposal, 
other than what Mr. Ward has purported.
    I also ran a D&B on this company, WestBank Holdings, and 
found that it was a company formed in 2001, had done $100 worth 
of business, it was listed as a financial services company, a 
90-day late payment, and no work history for the CEO.
    Well, I am just a normal, you know--one time I was called a 
dumb old infantryman. I guess I am, but I looked at it and I 
said, you know what, this does not seem to fit to me, that 
somebody who has had no experience at all on the record, at 
least, in this business whatsoever, puts together this kind of 
proposal and this kind of business plan, and if you will, yes, 
at that point I became absolutely convinced that Mr. Ward in 
fact helped him do that, because he is the only one of that 
group, at least, based on the record, that would seem to have 
that kind of background and experience.
    And particularly, he had direct knowledge of what went on 
in the Olympic movement. I mean, that knowledge came from the 
USOC. It did not come from reading a newspaper. He knew about 
the electrical problems and the power problems, and at that 
point I--of course, as I said, I had no further deliberations 
with the committee.
    To continue, one of the things I was accused of was keeping 
the president informed. Well, of course I kept the president 
informed, because by policy, on matters related to the CEO, I 
report to the president, and the oversight committee, so the 
president was kept fully informed of all those actions.
    The next thing that happened, of course, was--I never, by 
the way, had another conversation with Ken Duberstein, so I was 
not kept informed. I never saw the report, so I cannot sit here 
and say that the Ethics Committee in fact had all the 
information. Clearly, I felt they should have had at least my 
take on the issue. I am not a voting member of the committee, 
but I think I have enough experience in this field to have at 
least offered an opinion, and they could have considered it.
    The next thing that happened was, I was sitting in Hawaii 
and reading the newspaper, headlines like, I have been 
exonerated, there was no wrongdoing found of Mr. Ward, and I 
quite frankly turned to my wife and I said, I have to resign. I 
cannot continue to promote a code that the leadership of the 
organization simply turns a blind eye to. I cannot stand in 
front of the same employees that I spent the last year standing 
in front of doing ethics training and explaining all of this to 
them, and then say, it is OK for the CEO--I made the statement 
that if it is OK for the CEO, then I will go back and change 
all of the policies to say that all employees of the USOC from 
now on should invite in their friends, relatives, and anybody 
else they want to try to make whatever business connections 
they want, because the worst thing that happens is, you are 
going to be exonerated, or your salary may be reduced.
    That is it.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Senator Breaux.
    Mr. Ward. Senator Breaux, may I ask the chairman a 
question?
    Senator Breaux. Sure. Go ahead. Do not use my time, though.
    [Laughter.]
    Mr. Ward. Mr. Chairman, I was just trying to understand 
procedurally if there is any opportunity for me to comment.
    The Chairman. If any witness wishes to speak, including 
yourself especially, Mr. Ward, in light of Mr. Rodgers' 
comments, please feel free to do so.
    Mr. Ward. Thank you for that opportunity.
    The Chairman. If any of the other witnesses at any time 
want to speak, please do so.
    Mr. Ward. I was listening very carefully to Mr. Rodgers, 
and I was struck by his comments at the end when he was in 
Hawaii and reading the newspapers, and he was offended by the 
fact that evidently I said I was exonerated. I would like him 
to produce that news article, because I never said I was 
exonerated, and I have no knowledge of that being reported in 
the paper.
    I did not feel like I was exonerated, but I do feel like it 
speaks to an issue with Mr. Rodgers. I think he has his own 
reasons to tell half-truths, misrepresentations, innuendos, and 
I think he is taking it to the extreme.
    Mr. Rodgers is mounting his own personal vendetta, and he 
is misrepresenting facts, and he is drawing conclusions that no 
one else drew. He is not pleased with the process and the 
outcome and, quite frankly, he has his own reasons.
    Mr. Rodgers got a very serious performance counseling 
session from me in September. Mr. Rodgers and I had a difficult 
interaction. He did not agree with the fact that I took 
exception to the fact that he was part of several people who 
were getting unauthorized access into my calendar, and instead 
of Mr. Rodgers advising me that there was an electronic glitch 
in my calendar and people were accessing it in an unauthorized 
way, he participated in that himself, and on two separate 
occasions he entered into my electronic calendar and viewed it, 
and he knew others were doing it as well, and I let him know 
that I thought that was a serious performance issue, and that 
he was violating the very code of ethics which he was there to 
uphold.
    Mr. Madronero and Mr. Rodgers were very good friends, and 
Mr. Madronero had shared some of this information with Mr. 
Rodgers along the way. I find it interesting that Mr. Rodgers 
in October, when his friend is leaving the company under some 
level of duress, that Mr. Rodgers then starts to mount this 
campaign around an ethical violation.
    I will say again that my involvement in this was purely to 
help our athletes, and what is truly inconsistent is somehow 
that I would risk all that I have done, all that I have worked 
to be, for this kind of charade, and Mr. Rodgers is just off 
base.
    Thank you.
    Senator Breaux. Thank you, Mr. Chairman. I just hope that 
none of you at the table have to work with each other in the 
future.
    [Laughter.]
    Senator Breaux. I tell you what, it is not going to be a 
pretty sight. Who fired Mr. Madronero?
    Mr. Ward. I did. I did not fire Mr. Madronero. Let me 
clarify that. After counseling Mr. Madronero he decided to 
resign from the company, and I was agreeable to that.
    Senator Breaux. Mr. Rodgers, how did it come to pass that 
you had lunch with Mr. Madronero after he had been dismissed, 
or quit?
    Mr. Rodgers. It came to pass that, in fact, it was 
prearranged, when--first of all, I did have a close working 
relationship with Mr. Madronero, as the managing director of 
international relations, because I made it my point to focus on 
that area, since it obviously was one of the major problems in 
the Salt Lake scandal.
    It is not fair to say that we are friends. I never had 
dinner with the man, never, as somebody alleged, played golf 
with him. I have never done that.
    Senator Breaux. Did you call him for the lunch or did he 
call you?
    Mr. Rodgers. He called me and he said, I am pretty sure 
that Lloyd is going to let me go on Monday because he told me 
to come in and see him at 7. I said, OK, great, then let us 
have lunch. I did not mean great that he was being let go, but 
it is not unusual to have lunch with somebody when 
circumstances like that occur, and yes, I did like Mr. 
Madronero, but I did not socialize with him, so that is a 
mischaracterization.
    Senator Breaux. So at the luncheon you had with Mr. 
Madronero, after he had been told that he was being removed, 
did he just sort of bring up the fact, look, I have got some 
information you might like to see?
    Mr. Rodgers. Well, it was a luncheon with Mr. Madronero and 
another person who was on his staff, and Mr. Madronero said 
that he did not particularly appreciate the fact that he was 
escorted off of the facility, not given an opportunity to go 
back to his office or say goodbye to anybody in his 
organization.
    Senator Breaux. Mr. Madronero was pretty mad at Mr. Ward?
    Mr. Rodgers. Yes, he was, and he said, ``and after all I 
did to help his brother.'' Those were his exact words, and my 
response was, ``What do you mean, Hernando, after all you did 
to help his brother? '' His response was, ``It is nothing. It 
is no big deal. I really just want to go on, and I do not want 
to jeopardize any kind of settlement, or anything like that.''
    I then--yes, I took the initiative, and yes, I pressed him 
as to exactly what he meant by that statement, and that is when 
he told me he made some phone calls.
    Senator Breaux. Let me ask you at that point, did he say 
that Mr. Ward asked him to make those calls, or did he take it 
upon himself to do that?
    Mr. Rodgers. He said Mr. Ward asked him to make those 
calls, and I reminded Mr. Madronero that when he first showed 
me the letter and the business plan in April, that I had asked 
him specifically at that time as to whether or not Mr. Ward had 
asked him to do anything, because there is nothing in those 
documents, but I did not just rest with my opinion. I went up 
and I talked to the general counsel, and he and I both looked 
over both of those documents, and we agreed there was nothing 
in there.
    The general counsel, then, and I agreed that if the name of 
that company ever showed up as it related to doing business 
with the USOC we would want to know about it, because we needed 
to make sure that there would not be any conflicts of interest, 
but neither of us saw any conflicts of interest based on those 
first two, and in fact if we had known that it had anything to 
do with the Pan American Games, we would not have been putting 
out any information to the USOC about a USOC contract. We had 
no idea.
    Senator Breaux. Were there any communications in writing 
from Mr. Ward to Mr. Madronero asking him to take those steps?
    Mr. Rodgers. That is what was--well, the note, ``Come and 
see me,'' is what Mr. Madronero gave me in October. He also 
then told me he had a voice mail from Mr. Ward's brother, and I 
asked him at that point to transfer that voice mail to my 
phone. He did that from his apartment. I transcribed it the 
next day.
    Senator Breaux. There was nothing from Mr. Ward, other than 
a note saying, come see me?
    Mr. Rodgers. And Mr. Madronero's statement that Mr. Ward 
asked him to make the call, and as far as I was concerned, the 
fact that Mr. Madronero had received a voice mail from Rupert 
Ward confirming a meeting with Dr. Puello in Santa Domingo was 
confirmation that in fact Mr. Madronero made those calls, and 
that Mr. Ward's brother was having the meetings.
    Senator Breaux. Mr. Ward, why, in your opinion, would Mr. 
Madronero take it upon himself, without you asking him, to set 
up meetings for your brother with the people in the Dominican 
Republic?
    Mr. Ward. I asked Mr. Madronero to review the proposal and 
make a determination as he saw fit. I did provide him the phone 
number of my brother, but prior to the proposal coming to me in 
April, because the first contact Mr. Madronero and I had on 
this matter was in January, where he mentioned the electrical 
shortage, power shortage in Santa Domingo. I had contacted him 
one time between January, when we first discussed it, and 
April, when the proposed business proposal came in. And, it was 
a phone conversation, I asked him if he had had any contact 
with my brother on the opportunity in Santa Domingo.
    Mr. Madronero said he had not, and I said, ``Well, OK, 
fine.'' The proposal came through. I passed it on to Mr. 
Madronero with a note that you have noted in the files, and in 
that my instructions to him were very specific. Mr. Madronero, 
``Hernando, please review this, make a determination around the 
viability of this. I want to be totally hands off of this. This 
is your call completely'' (I had as specific a conversation 
with him as I am saying to you right now) ``and it is yours to 
handle. I want my hands totally off this.'' And then Mr. 
Hernando went and did whatever he decided to do.
    Senator Breaux. Well, Mr. Chairman, I think that I take it 
there is another independent review of these actions, is that 
correct? Is there not another independent review being taken of 
this?
    Mr. Ward. Senator Breaux, there was a senior member of the 
Executive Committee of the USOC that has recommended to the 
Executive Committee that we initiate an investigation of not 
only the ethics situation as it relates to my situation, but to 
the full ethics report.
    Senator Breaux. Has that been done?
    Mr. Ward. It has not been put in action yet. It is under 
consideration in the Executive Committee.
    Senator Breaux. Why would you all even have to consider it?
    Mr. Ward. We have not had an opportunity to address that 
issue with the other matters.
    Senator Breaux. Is there any doubt you are going to agree 
to do that?
    Mr. Ward. I think the large majority is in support of that.
    Senator Breaux. I would highly recommend it. I mean, 
hopefully that would shed some additional light on all of these 
transactions about Mr. Ward and whether what he did is a 
violation or an appearance of a conflict, or what an 
appropriate penalty should be, but again, Mr. Chairman, it 
speaks to a larger problem here. I think really, to your 
credit, you are going to have to be involved in restructuring 
this operation. A 123-member board is absolutely ridiculous. 
You cannot manage that, and we have to, I think, make some 
structural changes in order to prevent this particular problem 
from ever occurring again.
    Thank you very much.
    The Chairman. Thank you.
    Mr. Rodgers. Can I make a comment?
    The Chairman. Yes.
    Mr. Rodgers. First of all, I do have the newspaper article. 
I would be happy to provide it.
    Second, I never received an adverse performance appraisal 
no matter what Mr. Ward may purport, and I would ask that he 
produce that.
    Third, it is a matter of record when Mr. Duberstein 
received not one but three separate requests to complete his 
outside interest disclosure. The first one was sent in April, a 
followup one was sent in July, and the e-mail was a followup to 
that, aside from phone conversations I had with his assistant 
just before the end of the year. That is all a matter of 
record. I obviously encourage anybody to look, because I think 
the facts in this case will speak for themselves if looked at 
independently.
    The Chairman. Thank you. Any additional information any of 
the witnesses think the committee needs, we will be glad to 
receive.
    Ms. Mankamyer, I only have a couple more questions, and 
Senator Campbell has one. You have been very patient, and very 
cooperative, all of the witnesses have.
    The Washington Post article dated January 26, 2003, states, 
``Seven high-ranking USOC officers, all members of the 
Executive Committee, claim that Mankamyer, a real estate 
broker, sought to defame Ward for months and attempted to 
manipulate the ethics process in an attempt to force him out.'' 
Is this true, number 1, but if it is not, which I would imagine 
you will say it is not, why would seven high-ranking members of 
the USOC make such claims?
    Ms. Mankamyer. The first answer, sir, is that I did not, 
and in any corporation, think that there is always, probably in 
this one more than anything else, the reason to have 
substantive differences of opinion. You have already identified 
how the organization works and, if I might, I could give you a 
couple of examples of where there are substantive differences.
    The Chairman. To the point where your resignation would be 
demanded?
    Ms. Mankamyer. Senator, the world of sport is a very 
different place. Even though I would not stand for election 
another time, if I were removed, one of the seven would take my 
place.
    Two things there. One, they believe that they were probably 
operating with as much information, and it is a group, I would 
say, that the board of directors elected me, not those seven, 
and that is absolutely true, and so I think that it was sort of 
a mob mentality, and to some extent there was an effort to 
discredit what I believe to be correct on the ethics issue. 
There was a difference of opinion.
    The Chairman. Thank you.
    Finally, Mr. Rodgers, the IT people and Mr. Ward just 
stated you accessed his computer a couple of times. Is that 
correct?
    Mr. Rodgers. I am glad you asked that question, Senator. 
Yes, as a matter of fact, Mr. Ward's calendar was openly 
available to any employee at the USOC. I inquired one day as to 
whether or not Mr. Ward happened to be around, because I was 
thinking about going to talk to him, and so he said, well, all 
you have got to do is look at his calendar, so I went down, 
called up the calendar, which every employee could do, and 
noticed that it was on there.
    I may have done--he says twice. Maybe I did it one other 
time. Anybody can have their calendar on the agenda for the 
USOC. That is how you schedule meetings, appointments, and 
everything else, and I quite frankly saw nothing wrong with his 
calendar being on there, and following, about a month later, a 
number of employees came and complained to me because the 
general counsel and the director of human resources showed up 
at these relatively, in fact very low level employees' offices 
accusing them of unauthorized access to the CEO's calendar, 
when the CEO's calendar was online for everybody to see, and 
question their motives for access, et cetera.
    I even wrote a memo back to these same individuals and 
said, if the CEO's calendar was erroneously put online by this 
assistant, then it seems to me appropriate to take it offline 
and to deal with whomever had it online, but do not deal with 
the employees who openly access something readily available to 
everybody, and therefore calling it unauthorized access was 
absolutely inappropriate, and I thought inappropriate to have a 
general counsel and the director of human resources show up at 
secretaries' offices, accusing them of unauthorized access. I 
just thought it was a total overreaction.
    The Chairman. Mr. Ward, do you want to respond?
    Mr. Ward. Yes, thank you.
    The thing that has been very clear in the USOC prior to me, 
and certainly as a part of my time there, is that the CEO's 
calendar has been confidential. My calendar was not open as a 
normal course of events. In fact, my calendar has a lot of 
confidential information on it. Mr. Rodgers should be well 
aware of that fact. I know that in the executive offices it is 
very clear, and is common knowledge that the senior executives' 
calendars are not online.
    There was an electronic glitch that allowed people to 
access it, and which a few people, including Mr. Rodgers, took 
advantage of during that period of time. After the glitch was 
closed down and that open access was no longer capable 
electronically, there are people that continued to try to get 
into the system and print out my calendar.
    Mr. Rodgers on three separate occasions, and our records 
will validate that, went into my calendar, read only, and 
viewed my calendar. Mr. Rodgers and I had a conversation about 
this. I did refer to it as a performance concern. I did not 
have a writeup of that occasion, but he knows that we had this 
conversation, and it was an intense conversation between the 
two of us.
    The Chairman. Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman.
    I am interested in your response, Mr. Ward, to Senator 
Wyden's comments about your membership in the Augusta National 
Golf Club, and I certainly do not want to start an argument 
with you, but I want to tell you, because I am Indian on my 
dad's side, I am sometimes categorized around here as a person 
of color. When people ask me about it, I usually tell them I am 
an American who happens to be Indian on my dad's side, proud of 
it, but first I am an American.
    I do not think that you are the only one who has had to 
scratch your way up. Most of the people in here know my 
background, which was in an orphanage as a kid, my dad 
drinking, in the slammer, my mother sick, all that, high school 
dropout, gangs, the whole damn thing that a lot of minority and 
mixed blood kids face.
    I know what it is like to try to get ahead, but I will tell 
you this, I would not belong to any group that had a rule that 
said gays or women or people of color could not belong to it, 
and I just want that to be a matter of record. Sports, in my 
view, in a way saved my life. I was going the wrong way as a 
kid, and if I had not gotten into sports, I think I would have 
been in a different kind of institution now. As Senator McCain 
knows, I sometimes say, it would have had bars on it, not this 
kind of an institution. It was really sports that kind of gave 
me a lift and got me in the right direction.
    But even though it helped me a lot, those of us who came up 
the hard way and had to scratch our way up, it seems to me that 
we have to try to set an example. I do not know what kind of an 
example you are setting. That is up to you. That is your 
decision. Certainly, I am not asking you to resign. That is 
your decision, too, but I just wanted you to know that, by 
golly, a lot of us believe that any organization that 
discriminates does not need me involved in it.
    Thank you, Mr. Chairman.
    Mr. Ward. Mr. Chairman, may I make a comment?
    The Chairman. Yes.
    Mr. Ward. Senator Campbell, thank you for that, and I 
certainly understand that reasonable people can look at the 
same situation differently, and for me it is a simple matter. 
The grandest occasion for me would be to play the first round 
in Augusta with a female member, and to know that in some way 
my choice, quite frankly, Senator Campbell, is not an easy 
choice--it is not an easy choice to have gone on record 
relative to my support of the inclusion of women. It is not 
easy to stand up for what you believe in, but all my life I 
have done that, and that has been my pathway, and I am not 
suggesting that is everyone's pathway.
    If I did not believe in what I believe in, I would have 
walked away from the USOC. I would have--on most of the things 
that I faced in life. I have had to face them and make a very 
hard determination around the question, ``is this worth it?''
    The Olympics are worth it, and quite frankly, I do have a 
thought relative to moving forward. I think that it is 
important that the leaders of the USOC are leaders that the 
organization have confidence in and will follow, and I am 
wiling to stand at this moment and say that as a part of our 
internal process, if the Executive Committee and the board of 
directors call for my resignation from the United States 
Olympic Committee, I will know that I have done my absolute 
best to serve the athletes of this country and to deliver on 
your charter to us, and I will step down.
    I think that that should be true for President Mankamyer as 
well. If they want one of us to go, if they want both of us to 
go, if they want either of us to go, I think that at this 
critical time, as we move forward within the purview and the 
oversight of Congress, that we have the leadership in the USOC 
that our constituents believe in and are willing to follow, and 
if my stance on Augusta or if anything I have done to this 
point cause the constituents to lose confidence and faith in me 
as their leader, I will step down, sir, and I would suggest 
that that be true with any other leader in this movement.
    Senator Campbell. Mr. Chairman--and thank you for that 
response, Mr. Ward.
    In closing, my last comments, in 1963, when we were forming 
for the Pan American Games team in Miami, we did not know it 
until we got to Miami that the hotel where all of the athletes 
were staying had a policy of not allowing the black athletes to 
be housed with the white athletes. As a body, we took a vote 
and declined our reservations and moved out. I do not know of a 
time when the Olympic Committee stood taller.
    Thank you.
    The Chairman. Well, thank the witnesses for your patience. 
It has been a long hearing and a very difficult----
    Mr. Rodgers. Senator, can I make one final comment?
    The Chairman. Please, Mr. Rodgers.
    Mr. Rodgers. I just want to say that in the ethics business 
individuals who violate ethical standards historically blame 
everybody else, and I think this is an absolute classic case 
of, it is everybody else's fault, not Mr. Ward's.
    Mr. Ward. Senator, I simply cannot let this hearing--it has 
been so honorable--end on that note. I have accepted 
responsibility for my actions, and I have paid very dearly. In 
the press, I have been defamed, my reputation has been, let us 
put it this way, at least called into question, and Mr. Rodgers 
has stepped over the line time and time again.
    I am not here to cast a shadow on anyone else. I am here to 
accept my part in all of this, and I am telling you that I am 
willing to go forward, but we have a choice to make, and that 
choice is to reach for a better tomorrow, or hold onto the 
practices of the past, and if the choice is to hold on to the 
practices of the past, then it would be better that I resign, 
because my intent is to serve American athletes and deliver on 
your charter.
    Thank you.
    The Chairman. I want to thank the witnesses; this has been 
a very unhappy hearing for you, and it has been for those of us 
who sit here, because making these kinds of judgments is very 
difficult, and sometimes even perhaps inappropriate, but we do 
have our responsibilities as a committee, and I intend to 
exercise those responsibilities.
    Our next hearing, with the participation of Senator 
Campbell and with the leadership of Senator Stevens, will be to 
try to come up with a way that the USOC can be reorganized to 
eliminate and hopefully prohibit this kind of situation from 
ever arising again.
    I thank the witnesses. This hearing is adjourned.
    [Whereupon, at 5:10 p.m., the Committee adjourned.]
                            A P P E N D I X

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    Thank you, Mr. Chairman. I've read with disappointment the 
accounts of recent conflicts and controversies that have come 
to light within the U.S. Olympic Committee and I appreciate 
your holding this hearing to discuss the state of the USOC as 
we consider how this organization might be streamlined and made 
more accountable.
    The fact of the matter is, the U.S. Olympic Movement 
belongs to all of us. That is the entire rationale and raison 
d'etre of the Olympics--and it's why the USOC is a federally 
chartered corporation, thanks to the Amateur Sports Act 
authored by my good friend and distinguished colleague, Senator 
Stevens.
    Indeed, the USOC describes itself as ``the custodian of the 
U.S. Olympic Movement,'' and, ``the moving force in support of 
sports in the United States that are the programs of the 
Olympic and Pan American Games.'' So there is no question that, 
as the ``keepers of the flame'', as it were, the USOC has a 
unique and very public responsibility.
    That's all the more true when you consider what amateur 
sports and the Olympic Movement means. They are supposed to be 
the embodiment of integrity, good sportsmanship, and above all 
else, success based on merit and merit alone. Unfortunately, 
reports of the USOC's recent activity and behavior seem, at 
least, to fly in the face of all of those principles.
    I'm also struck by the fact that, almost exactly a year 
ago, we were holding hearings in this very room to determine 
what had gone wrong at Enron. Now, I'm certainly not in any way 
comparing what happened at Enron with what's going on at the 
USOC. But I can't help but think that, with a year marked by a 
diminishment of trust in corporate America, how much more 
unfortunate it is that we now have a diminishment of trust in 
an institution whose very purpose is to promote and uphold the 
very finest ideals of honest competition.
    We do expect a kind of purity in our amateur sports--even 
if that expectation may be idealistic. That is why we are here 
today--to try to determine exactly what's gone wrong . . . why 
it's gone wrong . . . and how we can fix it.
    Because the erosion of confidence that results from the 
kind of conflicts we've recently seen also has very tangible, 
practical, effects. For one, it threatens the willingness of 
sponsors to continue to lend their money and their name to the 
U.S. Olympic movement. This support is essential to the success 
of the Movement--and the recent criticism from John Hancock 
Financial is emblematic of what happens when confidence is 
shaken.
    It also has a dilatory effect on the USOC's standing within 
the International Olympic Committee. I'm certainly not going to 
sit here and say the IOC has always been free from controversy 
and ethics questions. But it would also be wrong to think that 
controversies such as the one that prompted this hearing 
particularly help America's standing, or our efforts to host 
the Games in the future.
    So, once again, I applaud the Chairman for holding this 
hearing. During the process, I think it's vital we focus on two 
key issues--is the USOC's governing structure conducive to 
adequate oversight and efficient decisionmaking, and should 
there be greater accountability and transparency?
    Certainly, the organization appears unwieldy just in terms 
of its shear numbers--123 members of the Board of Directors, 21 
members of the Executive Committee. So we should look at paring 
those numbers down. Also, perhaps we should carefully examine 
the division of duties between the President and the CEO to 
determine if there are ways to reduce the potential for 
conflict. And perhaps it is time for a kind of ``Inspector 
General'' model at the USOC, or some other independent 
oversight at the USOC itself that can report back to Congress.
    In closing, when thinking about the USOC's structure, I 
can't help of something Admiral Rickover once said, that 
``Unless you can point the finger at the man (and I would add, 
woman) who is responsible when something goes wrong, then you 
have never had anyone really responsible.'' Unfortunately, with 
a current structure at USOC that reads less like a corporate 
flow chart and more like the cast of a Russian novel, you'd 
need a lot more than a score card to figure out where the 
problem really lies.
    Thank you, Mr. Chairman.
                                ------                                

     Response to Written Questions Submitted by Hon. Barbara Boxer 
                             to Lloyd Ward
    Question 1. What specific efforts have you made toward the goal of 
eliminating gender discrimination at Augusta?--What have been the 
concrete results?
    Answer. I publicly stated my desire for Augusta National Golf Club 
to expand its membership to include women, first in April 2002, and 
again in October that same year. Beyond that, I have had conversations 
with Mr. Hootie Johnson and others stating my position and exploring 
pathways for progress.
    Question 2. Do you plan to resign from Augusta National Golf Club 
if the Club does not open its doors to women?
    Answer. I will resign from Augusta National if the Club does not 
open its doors to women.
    Question 3. What is your timetable for resignation from the Augusta 
National Golf Club if your efforts to break down the gender barrier are 
unsuccessful?
    Answer. I have no specific timetable. There is no question in my 
mind that women will be members of Augusta National. The only question 
is when. The chairman of Augusta National has stated the Club could 
very well have a women member one day. Today, women play Augusta 
National routinely and frequently.
    Question 4. Do you believe that your continued membership in this 
club taints the USOC and the Olympic Movement, especially at a time 
when the USOC has been subject to heavy criticism on numerous fronts? 
Why or why not?
    Answer. I do not believe that standing up for the equality of men 
and women taints the United States Olympic Committee or the Olympic 
Movement at all. However, this question weighs heavily on my mind.
    I believe the stand I took in April 2002 (Attachment 1), expressing 
publicly that I stand against discrimination and support the inclusion 
of women in Augusta National, was the right thing to do.
    I believe the public reinforcement of my position to Martha Burke 
in October 2002 (Attachment 2) was the right thing to do, not because I 
am CEO of the United States Olympic Committee, but because I believe in 
equal opportunity and full inclusion.
    I have been, and will continue to be, a voice for inclusion for 
women, African Americans, and other minorities, both publicly and 
privately.
                                 ______
                                 
Attachment 1
    April 11, 2002
Augusta Faces Push for Women
by Debbie Becker
    U.S. Olympic Committee chief executive officer Lloyd Ward, one of 
Augusta National Golf Club's few African-American members, told USA 
TODAY on Wednesday he will ask club members to begin admitting women as 
members.
    ``I want to have influence from the inside,'' Ward said. ``I want 
to talk to members of Augusta and say, quite frankly, that's simply not 
enough (admitting African-Americans). You've got to have a broader 
membership, and that includes women.''
    Augusta National is home of The Masters, one of golf's most 
prestigious tournaments. The 66th edition of the event begins today.
    The club, which opened in 1932, allows women to play its course. 
There are no women among its invitation-only membership.
    Asked at a news conference Wednesday if women are excluded from 
membership, Augusta National chairman Hootie Johnson said: ``We have no 
exclusionary policies as far as our membership is concerned.''
    Asked what that means, he declined to elaborate.
    Johnson said he had no comment when USA TODAY asked later about 
Ward's remarks.
    USA TODAY interviewed Ward in the wake of a report in the May/June 
edition of Golf for Women about the exclusionary membership policies of 
Augusta National and the Royal & Ancient Golf Club of St. Andrews in 
Scotland. (The R&A runs the British Open.)
    The report identified Ward as a member of Augusta National. The 
club does not release membership information.
    Also, The Masters' corporate sponsors are coming under media 
pressure to raise the gender issue with Augusta National.
    Ward, 53, was hired by the USOC in November. One of that 
organization's underlying principals is race and gender equality.
    ``Discrimination is evil, and we should not allow that,'' said 
Ward, a former chairman of Maytag Corp. who became a member of Augusta 
National two years ago. ``I have not gone to Augusta and said, `This is 
what you must do now.' . . . But as a member of Augusta, I believe that 
once you bring me in, this is what I advocate. Inclusion does not just 
mean people of color. It should be extended to that broader base that 
includes women.''
    USOC President Sandra Baldwin said she does not believe Ward should 
resign his Augusta National membership.
    ``I'm glad an African-American is a member at Augusta,'' Baldwin 
said. ``It's absolutely better if he stays. Resigning in a huff never 
makes any sense. I, for one, want to make every effort to make sure 
women are admitted as well. We need to work to make the situation 
better for everyone.''
                                 ______
                                 
Attachment 2
                   Lloyd D. Ward, CEO and Secretary General
                              Colorado Springs, CO, October 7, 2002
Martha Burk, Ph.D.,
Chairperson,
National Council of Women's Organizations,
Washington, DC.

    Dear Dr. Burk:

    The United States Olympic Committee does, indeed, stand for 
inclusion at every level, and that philosophy is one of the basic 
principles of the Olympic movement; It stands on a platform that also 
includes fair play, sportsmanship and a level playing field for our 
athletes. The LTSOC embraces all persons who share that belief. It is 
also the cornerstone of my own values and ideals.
    I am working with others who are members of Augusta National Golf 
Club who share the belief that the organization should include women in 
its membership ranks. It is my intent to aggressively work for that 
reform.
    When I became a member of Augusta, I believed it was a breakthrough 
for minorities, and that I had helped to eliminate barriers for others 
in this regard. It was a message that this nation does offer the chance 
to set goals, achieve them, and open doors for others.
    I am committed to breaking down barriers which exclude women from 
membership at Augusta in the weeks and months ahead.
        Sincerely,
                                             Lloyd D. Ward,
                                    United States Olympic Committee

                                  <all>

</pre></body></html>
